<html>
<title> - STRENGTHENING THE BORDER</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
     STRENGTHENING THE BORDER--FINDING THE RIGHT MIX OF PERSONNEL, 

                     INFRASTRUCTURE, AND TECHNOLOGY

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON BORDER AND

                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2011

                               __________

                           Serial No. 112-10

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED


                                    

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
72-220                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Mike Rogers, Alabama                 Henry Cuellar, Texas
Michael T. McCaul, Texas             Loretta Sanchez, California
Paul C. Broun, Georgia               Sheila Jackson Lee, Texas
Ben Quayle, Arizona, Vice Chair      Brian Higgins, New York
Scott Rigell, Virginia               Hansen Clarke, Michigan
Jeff Duncan, South Carolina          Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)

                      Paul Anstine, Staff Director
                   Diana Bergwin, Subcommittee Clerk
            Alison Northrop, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  from the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security...................................     1
The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security..........................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     4

                               Witnesses

Mr. Michael J. Fisher, Chief of the Border Patrol, U.S. Customs 
  and Border Protection, Department of Homeland Security, 
  Accompanied by Mark Borkowski, Assistant Commissioner, Office 
  of Technology Innovation and Acquisition, U.S. Customs and 
  Border Protection, Department of Homeland Security and Michael 
  C. Kostelnik, Assistant Commissioner, Office of CBP Air & 
  Marine, U.S. Customs and Border Protection, Department of 
  Homeland Security:
  Oral Statement.................................................     7
  Joint Prepared Statement.......................................     9
Major General Hugo Salazar, Adjutant General, Arizona National 
  Guard:
  Oral Statement.................................................    14
  Prepared Statement.............................................    15
Mr. Richard M. Stana, Director, Homeland Security and Justice 
  Issues, Government Accountability Office:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22

                             For the Record

The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security:
  Graph..........................................................    32


     STRENGTHENING THE BORDER--FINDING THE RIGHT MIX OF PERSONNEL, 
                     INFRASTRUCTURE, AND TECHNOLOGY

                              ----------                              


                        Tuesday, March 15, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, McCaul, Quayle, Duncan, 
Cuellar, Jackson Lee, Higgins, and Clarke.
    Also present: Representative Green.
    Mrs. Miller [presiding]. If I can turn my mic on, we will 
get it going on here this morning. It is still early. I would 
like to call the committee to order.
    Certainly, first of all, let me just thank all of our 
witnesses sincerely, every one of you, for taking time today to 
provide the testimony that you are going to be providing to the 
committee and answering our questions very forthrightly. We are 
sincerely appreciative of that.
    I want to say that the men and women of Customs and Border 
Protection have our Nation's gratitude so very, very much for 
all of the work that they do and they perform to keep our 
Nation safe.
    Certainly, Major General Salazar, we had a chance to chat 
before we opened the hearing. We appreciate so much all the 
work that the men and women in the National Guard all across 
our country, engaged in theater. I mentioned to you my husband 
spent many, many years in the Air National Guard, a blue 
suiter--but we are very appreciative of the work that they do 
everywhere and work that they are doing to work so closely with 
CBP in securing our Nation's border today. We will be 
interested in hearing about that.
    Our first hearing, actually, examined the concept of 
operational control of the border. We tried to define what 
operational control is and the matrix that we are utilizing to 
determine what operational control is of both the Southern 
border and the Northern border and, I think, the difference 
between what the American people commonly think when they hear 
the term ``operational control'' and then what the Border 
Patrol means when they say ``effective control.''
    This hearing determines and tries to build on that 
discussion by examining the three main pillars that allow 
Border Patrol agents to be effective. That, of course, is a 
combination of personnel, infrastructure, and technology. I 
think we certainly need all three to be successful in securing 
our borders.
    Since the year 2004 we have invested literally billions of 
dollars in every one of these categories, all three of the 
categories. But we want to look at how they work in concert to 
enable our agents to be effective. Today we are going to look 
at the level of agents that we have in the field, the amount of 
fencing that we have, infrastructure, and perhaps certainly one 
of the most critical elements, and that is how we are utilizing 
technology as well along our borders.
    The Secure Border Initiative Net, SBInet, as everybody 
calls it, was designed to be one of the solutions, technology 
solutions to help secure the Southwest border. It has been used 
as well on the Northern border, but after a number of years of 
missteps and we didn't get what we wanted to out of the SBInet, 
and as well we expended over $1 billion, the Secretary of 
Homeland Security, Janet Napolitano, decided to cancel this 
program after the completion of an analysis of alternatives, 
which determined that SBInet was just not economically 
feasible.
    So the logical question is, and one of the things that I 
hope we get to today, is what is the follow on? What is the 
follow on to SBInet? If not SBInet, then what is next if, you 
know, we can't put enough agents on the border, we can't put up 
enough fence to provide the level of security on the very vast 
Southwest border, and certainly the Northern border, that is 
required to protect our sovereignty and to meet the demands of 
the American people? So, technology has to become a force 
multiplier, a force multiplier to support the incredible 
efforts, again, of our brave border agents.
    In fact, I think that is what the Border Patrol envisions--
utilizing technologies to reduce the workload, to make them 
more effective for the men and women in the field as well as to 
enhance their effectiveness in identifying, apprehending, 
whether it is drug smugglers or illegal immigrants, who might 
only seek economic opportunity, but as well potential 
terrorists and others, who would seek to cross the border 
illegally.
    The Department of Homeland Security's Analysis of 
Alternatives, which formed a new technology plan for the State 
of Arizona, consists of a combination of Remote Video 
Surveillance Systems, Mobile Surveillance Systems, Unattended 
Ground Sensors and other types of technology. The backbone of 
the Arizona plan actually consists of Integrated Fixed Towers, 
which look very similar to the original design of SBInet.
    However, it now appears that the technology plan for the 
entire Southwest border currently being prepared will not be 
ready until July instead of March, as we had originally hoped.
    I am concerned about the lack of a comprehensive technology 
plan as well for the Northern border, which does not appear to 
be something that CBP is considering at this time. I just would 
once again, and I always say that I am totally cognizant and 
very sensitive to all of the challenges that are happening on 
the Southern border of our Nation, but I like to remind folks 
we actually have two borders, so the Northern border as well. 
Both of them need to be secured.
    To fund this new technology plan, the President's fiscal 
year 2012 budget included $242 million in the border security 
fencing infrastructure and technology account, which will be 
used to deploy the first three of five total, as I understand 
it, Integrated Fixed Tower System deployments to Border Patrol 
stations' areas of responsibility in Arizona.
    Unmanned aerial systems are another critical tool employed 
by CBP Air and Marine, which gives the agents the ability to 
loiter over an area for long periods of time, making this 
platform ideal for the surveillance missions required by the 
Border Patrol. As well, I am a very strong supporter of using 
UAVs--I know my colleague, Mr. Cuellar, is as well--and, you 
know, which have proven to be so effective in theater in Iraq 
and Afghanistan to scale a vast expanse of the borders.
    Infrastructure is also critically important to our success 
in gaining control of the border. Like technology, it is not a 
solution by itself, but provides what the Border Patrol calls 
persistent impedance, which either pushes illegal crossers into 
more remote areas or gives Border Patrol agents more time to 
respond.
    I think we will be asking the question: Do we need more 
fencing, or is 350 miles of pedestrian fence and 299 miles of 
vehicle fence along the Southwest border adequate? Again, these 
are some of the questions that the committee is seeking to have 
answered today.
    Finally, the National Guard has been surged to the border 
several times since 2006, to perform a variety of missions. 
However, I am very concerned that the National Guardsmen and 
women are possibly constrained by DOD regulations. We don't 
want it to be an exercise in good optics, obviously, to say 
that we are sending all these National Guard troops to the 
border, but then limiting their ability to actually do the job 
that they have been trained to do and are able to do so 
effectively and so well.
    So we just want to certainly make sure that the Congress is 
assisting and enabling the National Guard to be able to do the 
job that they need to do along the border.
    Of course, I would point out that each and every mile of 
border is different. I am certainly cognizant again of the fact 
that it will take a combination of technology, personnel, and 
infrastructure to secure the border. There is no one-size-fits-
all solution for a border as vast and different, certainly, as 
ours.
    Again, I want to welcome all of the witnesses. I look 
forward to all of your testimony today.
    At this time the Chairwoman would recognize the Ranking 
Member, Mr. Cuellar.
    Mr. Cuellar. Thank you very much, Madam Chairwoman.
    I want to thank the witnesses for being here with us.
    I think we both agree that we are at a very important stage 
in our Nation's efforts to secure our borders. As border 
security threats are continuing to evolve and our country is 
facing new challenges that demand new resolutions, we must be 
at the forefront of all measures to secure and protect our 
homeland, including our many points of entry and exit on the 
Northern and Southern border.
    At our Northern and Southern borders, we have taken 
critical steps to interdict the flow of illegal weapons, 
people, drugs, and cash, but more work needs to be done. 
Chairwoman Miller and I both represent districts along our 
Nation's border, and I know we have several issues of mutual 
interest.
    Communities along our Nation's border and coastal areas 
face a unique exposure to threats that concern all of us. In 
the 28th District of Texas, which I represent, we have first-
hand knowledge of all the challenges along the Southern border 
and the importance of providing the tools necessary to enhance 
border security.
    I believe strongly that technology and personnel play vital 
roles in securing America's borders. DHS has increased its 
efforts in recent years to enhance border security, and we, 
both Democrats and Republicans, have provided the resources 
necessary to help us just do that.
    Since 2007 Congress has continued to increase border 
security funding. As a result CBP now has over 20,000 Border 
Patrol agents, more than 20,000 CBP officers at ports of entry 
and pre-clearing stations, and over 1,000 air marine pilots and 
vessel operators. Throughout the work of this committee, 
Congress has also provided funding to enable DHS to deploy 
technology in their security effort.
    I am particularly interested in receiving an update on 
CBP's use of unmanned aerial systems and how this technology 
will be utilized in the future in securing the borders. We must 
continue to mitigate border threats by deploying a combination 
of manpower, technology, and resources to enhance our strategy 
for securing our borders. I am interested in hearing from our 
witnesses about how they believe we can achieve this important 
goal.
    However, I do want to remind everyone here that our 
discussion about border security, we cannot continue to 
overlook the importance of our land ports of entry, which plays 
a vital role in combating the flow of illegal weapons, drugs, 
cash, human smuggling, while facilitating legitimate trade and 
travel.
    CBP reports that on a typical day officers at the ports of 
entry process 956,000-plus passengers and pedestrians and 
64,000-plus trucks, rail, and sea containers. We cannot achieve 
effective control of our borders if we do not provide the 
needed resources to the ports of entry to enhance security and 
facilitate commerce.
    Madam Chairwoman, I look forward to continue to work with 
you on this issue.
    I also thank the witnesses for joining us today.
    Thank you.
    Mrs. Miller. Thank you very much.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
        Prepared Statement of Ranking Member Bennie G. Thompson
                             March 15, 2011
    In January, after over 4 years and nearly a billion dollars spent, 
Secretary of Homeland Security Janet Napolitano canceled the SBInet 
program.
    Like the Department of Homeland Security's previous attempts to 
deploy a ``virtual fence'' along the Southwest border, the program 
never lived up to its billing.
    Technology problems, integration challenges, and management 
deficiencies plagued the program from its inception.
    With so little return on the taxpayers' investment, I 
wholeheartedly agreed with Secretary Napolitano's decision not to 
continue to deploy SBInet.
    However, I am concerned that there are some striking similarities 
between the Department's new plan for border security technology and 
SBInet and its predecessors.
    It is my understanding that the new Arizona Technology Plan calls 
for an integrated system of towers mounted with cameras and radars, as 
well as Remote Video Surveillance Systems, Mobile Surveillance Systems, 
and Unattended Ground Sensors.
    Is my further understanding that the Arizona Technology Plan comes 
with a price tag of several hundred million dollars.
    All of this sounds very familiar.
    We have been told that this time, technology is being selected 
considering operational needs and cost-effectiveness.
    Again, that sounds familiar, since DHS made similar promises when 
SBInet was launched.
    Make no mistake--I do not oppose the use of technology to sure our 
America's borders.
    To the contrary, I believe technology is an essential complement to 
Border Patrol agents, Customs and Border Protection officers, Air and 
Marine personnel, infrastructure, and other resources.
    But technology must be both proven and cost-effective if DHS is to 
avoid repeating past mistakes yet again.
    I am interested in hearing from our witnesses about how the new 
plan for border security differs from its predecessors, and how the 
Department will ensure this technology succeeds where others did not.
    DHS must do more than just put a new brand on the old way of doing 
things.
    It is my hope that under Secretary Napolitano's leadership, they 
will get it right this time.
    With respect to personnel, Customs and Border Protection has some 
of the finest agents and officers not only within DHS, but across the 
Federal Government.
    They work along the front lines of our Nation's borders, often 
under difficult and dangerous conditions, and we appreciate the work 
they do.
    As CBP has grown and the situation along the Southwest border has 
intensified, the men and women that comprise its ranks face new and 
more difficult challenges.
    Specifically, today I would like to hear from Chief Fisher about 
how the Border Patrol has been affected by its rapid expansion in 
recent years.
    I would also like to hear from General Kostelnik about what 
personnel challenges his agency is facing.
    Finally, I want to reiterate my support for a comprehensive border 
security strategy as a means for achieving border security.
    There is no single strategy setting forth how the relevant agencies 
are going to work together to secure America's borders.
    Given the number of agencies that play a role in this effort, such 
a strategy is essential.
    Again, I urge the Department to work with its Federal counterparts 
and other border stakeholders to develop such a plan.
    I thank the witnesses for joining us today and I look forward to 
your testimony.

    Mrs. Miller. We are again pleased to have a very 
distinguished panel of witnesses before us today on this 
important topic. I think what I will do is read your bios, and 
then we can just go on to the questions.
    First of all, Chief Michael Fisher, who has been before 
this committee before and appreciate him coming back, was named 
chief of the U.S. Border Patrol in May of last year. Chief 
Fisher started his duty along the Southwest border in 1987 in 
Arizona.
    He successfully completed the selection process for the 
Border Patrol tactical unit in 1990 and was later selected as 
field operations supervisor for the tactical unit assigned to 
El Paso, Texas, for 4 years. Following this, he served as the 
deputy chief patrol agent in the Detroit sector and as an 
assistant chief patrol agent in Tucson, Arizona.
    Mark Borkowski became the assistant commissioner for the 
Office of Technology Innovation and Acquisition with U.S. 
Customs and Border Protection of the Department of Homeland 
Security in July 2012--excuse me, 2010. He is responsible for 
ensuring technology efforts are properly focused on mission and 
well integrated across CBP and for strengthening effectiveness 
in acquisition and program management.
    Prior to his appointment as assistant commissioner, Mr. 
Borkowski was the executive director of the Secure Border 
Initiative program executive office and was responsible for the 
implementation of SBI at the U.S. Customs and Border 
Protection.
    Michael Kostelnik is the assistant commissioner, U.S. 
Customs and Border Protection Office of Air and Marine. Office 
of Air and Marine is the world's largest aviation and maritime 
law enforcement organization. The Office of Air and Marine is 
also the most experienced operator of Unmanned Aerial Vehicle 
systems--unmanned aerial systems in the homeland security 
missions on the world stage.
    The mission of the Office of Air and Marine is to protect 
the American people and the Nation's critical infrastructure 
through the coordinated use of integrated air and marine forces 
to detect, interdict, and prevent acts of terrorism and the 
unlawful movement of people, illegal drugs, and other 
contraband toward or across the borders of the United States.
    General Kostelnik spent more than 32 years on active 
military duty with the U.S. Air Force, serving as a fighter 
pilot flying 
F-4 and F-15 aircraft.
    Major General Salazar assumed the duties as the adjutant 
general, Arizona National Guard, in December 2008 and 
concurrently serves as the director of the Arizona Department 
of Emergency in Military Affairs. Major General Salazar has 
worked as a full-time member of the Arizona National Guard for 
the past 18 years, received his commission from the Officer 
Candidate School at Fort Benning, Georgia, in 1983.
    His military assignments include several command 
assignments, Arizona Joint Counter Narcotics Task Force, senior 
military advisor with the Multinational Security Transition 
Command Iraq, and deputy chief of staff operations for the 
Arizona Army National Guard.
    As the commanding general for the Arizona National Guard, 
his duties and responsibilities include managing the day-to-day 
activities of the Arizona Army National Guard, Air National 
Guard joint programs in the emergency management division.
    Richard Stana is the director of homeland security and 
justice issues at the U.S. Government Accountability Office. 
During his nearly 35-year career with GAO, he served in 
headquarters, field, overseas offices and has directed reviews 
on a wide variety of complex military and domestic issues. Most 
recently, he directed GAO's work relating to immigration and 
border security issues.
    So again, gentlemen, the committee welcomes all of you this 
morning.
    At this point the Chairwoman will recognize Mr. Borkowski, 
who will testify on behalf of the Department's witnesses.

  STATEMENT OF MICHAEL J. FISHER, CHIEF OF THE BORDER PATROL, 
  U.S. CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND 
      SECURITY, ACCOMPANIED BY MARK BORKOWSKI, ASSISTANT 
COMMISSIONER, OFFICE OF TECHNOLOGY INNOVATION AND ACQUISITION, 
  U.S. CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND 
  SECURITY, AND MICHAEL C. KOSTELNIK, ASSISTANT COMMISSIONER, 
OFFICE OF CBP AIR & MARINE, U.S. CUSTOMS AND BORDER PROTECTION, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Borkowski. Thank you, Madam Chairwoman.
    Chairwoman Miller, Ranking Member Cuellar, distinguished 
Members of the committee, on behalf of the Department of 
Homeland Security, thank you for this invitation to testify. I 
will be joined by my colleague, General Kostelnik, who was our 
assistant commissioner for the Office of Air and Marine, and 
Chief Fisher from the Border Patrol, but I will give one 
statement for all of us. We have submitted a detailed written 
statement, and I will summarize that on all of our behalf.
    First of all, I think as you characterize it, Madam 
Chairwoman, Ranking Member Cuellar, Customs and Border 
Protection is the agency responsible for security at our 
borders, or very close to the border. That is the mission that 
we perform. The men and women of Customs and Border Protection 
are very proud of that mission, are very dedicated to that 
mission.
    As you also noted, we have over the last several years 
significantly increased the resources applied to that mission. 
Ranking Member Cuellar, you mentioned the 20,700 Border Patrol 
agents, for example, which is more than twice what we had in 
2004. Madam Chairwoman Miller mentioned the 649 miles of fence, 
combined pedestrian and vehicle.
    In addition to resources we have applied a lot of effort in 
doing things more smart--for example, collaboration. Many of 
you are probably familiar with the Coalition on Transnational 
Terrorism, which includes 60 stakeholders, including our 
Government, the Mexican government, Federal, State, local, 
Tribal stakeholders.
    We have created a joint force command in Arizona so that 
within the CBP we now have a field commander--not in 
Washington, but in the field--who can make decisions about the 
use of CBP resources. So we have applied resources. We have 
changed our ways of doing business. We believe that those have 
already shown effects.
    One of the ways we measure that is by apprehensions. I 
think most of you are aware that over the last 2 years, 
apprehensions on the Southwest border have decreased by a very 
significant 36 percent and in fact are only a third of what 
they used to be years ago at their peak.
    Apprehensions, we believe, are a measure of the activity on 
the border. They do measure the flow, so we are quite clear 
that that also indicates that the flow of traffic between the 
ports of entry has declined.
    Last year we seized $147 million of currency both between 
and at the ports of entry. That is a 34 percent increase from 
the previous year. We seized 4.1 million pounds of narcotics. 
So we think we have been increasingly effective.
    Now, notice I said that carefully--``increasingly 
effective.'' That does not mean we are completely done with the 
mission. It does not mean we are where we would like to be. We 
recognize we have more work to do.
    One of the ways we think we get to that, as you have both 
alluded, is with the application of technology. You have 
suggested what the role of technology might be. I believe we 
are focused at this point between the ports of entry, but you 
have also noted, I think quite appropriately, that there is 
technology at the ports of entry, above and below the ports of 
entry, and the border.
    But for the purpose of this discussion, let us start with 
technology between the ports of entry. I think we are all 
familiar with the Secured Border Initiative Network program, 
the SBInet program, which was at one point intended to be the 
backbone of our technology. As you also suggested, we have had 
a series of problem with that. It is much behind schedule, much 
over cost, and we have lost confidence in the SBInet program.
    The Secretary conducted an assessment of that program and 
has concluded it does not make sense to continue it. In fact, 
the SBInet program, the whole concept of a backbone, seems 
inappropriate. What seems more appropriate is a tailored mix of 
technologies that are currently available to the border.
    The Secretary conducted the assessment with, among other 
things, an analysis of alternatives. You are going to hear a 
lot, I think, about analysis of alternatives. It is a certain 
term of art.
    One thing, I think, we need to be clear about is an 
analysis of alternatives is not in and of itself conclusive or 
determinative. It has uncertainties, but it is a very 
disciplined, structured process which frames decisions. The 
decisions themselves are not from the analysis of alternatives. 
They are from the decision-makers to receive the analysis of 
alternatives. In that case, this is the Border Patrol.
    So the Border Patrol decisions about technology and how it 
should be procured and used on the Southwest border were 
advised by this analysis of alternatives, but were actually 
made by that Border Patrol. I think it is important that we 
understand that as we go forward.
    I should note, and I think you are aware, that GAO has been 
with us for the past several months, reviewing this. That 
review is not complete, and I understand we will talk about the 
status of it, but the work continues. We still have some 
differences in what our understandings of this are, although we 
have philosophical agreement on what an AOA is and how it ought 
to be used. But there is more work to be done.
    I would just point out that we are in the process of making 
a bit of sausage, but in the end I am certain that it will be a 
sausage that is tasty and worthy, but we are not there yet, and 
I just think it is important to highlight that.
    A couple of other things--we should recognize the Northern 
border. I know in particular, Madam Chairwoman, you are very 
familiar with the activities on the Northern border, the 
deployment of agents, the beginning of the application of 
technology along the St. Clair River, along the Niagara River, 
the deployment of mobile surveillance systems. We are very much 
looking forward to joining you next week for the formal opening 
of the new operational integration center.
    One thing I would point out about the Northern border is 
that we believe is a much different environment. I know that 
Chief Fisher is prepared to talk to you about that, but the way 
we look at the Northern border ought to be different from the 
way we look at the Southwest border. We look forward to 
pursuing that discussion as we go forward.
    With that, thank you. We look forward to your questions.
    [The joint statement of Mr. Fisher, Mr. Borkowski, and Mr. 
Kostelnik follows:]
 Prepared Joint Statement of Michael J. Fisher, Michael Kostelnik, and 
                           Mark S. Borkowski
                             March 15, 2011
                              introduction
    Chairwoman Miller, Ranking Member Cuellar, and distinguished 
Members of the subcommittee, it is a pleasure to appear before you 
today to discuss U.S. Customs and Border Protection's (CBP) efforts to 
secure our Nation's borders.
    As America's frontline border agency, CBP is responsible for 
securing America's borders against threats, while facilitating legal 
travel and trade. To do this, CBP has deployed a multi-layered, risk-
based approach to enhance the security of our borders while 
facilitating the flow of lawful people and goods entering the United 
States. This layered approach to security reduces our reliance on any 
single point or program that could be compromised. It also extends our 
zone of security outward, ensuring that our physical border is not the 
first or last line of defense, but one of many.
    I'd like to begin by recognizing those at the Department who have 
given their lives in service to our mission. The loss of these brave 
agents is a stark reminder of the sacrifices made by the men and women 
of DHS every day. It also strengthens our resolve to continue to do 
everything in our power to protect against, mitigate, and respond to 
threats and secure our border.
                  overview of border security efforts
    Over the past 2 years, the Department of Homeland Security (DHS) 
has dedicated historic levels of personnel, technology, and resources 
to the Southwest border. In March 2009, DHS launched the Southwest 
Border Initiative to bring unprecedented focus and intensity to 
Southwest border security, coupled with a smart and effective approach 
to enforcing immigration laws in the interior of our country. We 
increased the size of the Border Patrol to more than 20,700 agents 
today, more than double the size it was in 2004. DHS also quintupled 
deployments of Border Liaison Officers to work with their Mexican 
counterparts; and began screening Southbound rail and vehicle traffic 
to look for illegal weapons and cash that, when smuggled across the 
border, help to fuel the cartel violence in Mexico.
    With the aid of the fiscal year 2010 Border Security Supplemental 
requested by the administration and passed by Congress, we are 
continuing to add technology, manpower, and infrastructure to the 
Southwest border, including 1,000 new Border Patrol agents; 250 new CBP 
officers at our ports of entry; improving our tactical communications 
systems; and adding two new forward operating bases to improve 
coordination of border security activities. The Supplemental also 
provided CBP two new Unmanned Aircraft Systems (UAS), further 
strengthening our UAS operations, which now covers the Southwest border 
from the El Centro Sector in California to the Gulf of Mexico in Texas.
    We've also constructed 649 miles of fencing out of nearly 652 miles 
where Border Patrol field commanders determined it was operationally 
required, including 299 miles of vehicle barriers and 350 miles of 
pedestrian fence.
    In addition, President Obama authorized the temporary use of up to 
1,200 additional National Guard personnel to bridge to longer-term 
enhancements in border protection and law enforcement personnel from 
the Department of Homeland Security to target illicit networks' 
trafficking in people, drugs, illegal weapons, money, and the violence 
associated with these illegal activities. That support has allowed us 
to bridge the gap and hire the additional agents to support the 
Southwest Border, as well as field additional technology and 
communications capabilities that Congress so generously provided. 
Secretary Gates and Secretary Napolitano agreed to equally fund this 
National Guard support and submitted two reprogramming requests to 
Congress to that end. Congress did not approve the reprogramming 
requests; therefore, the Department of Defense has been funding the 
full cost of this National Guard support.
    Beyond these measures, in recent months we have taken additional 
steps to bring greater unity to our enforcement efforts, expand 
coordination with other agencies, and improve response times. In 
February, we announced the Arizona Joint Field Command (JFC)--an 
organizational realignment that brings together Border Patrol, Air and 
Marine, and Field Operations under a unified command structure to 
integrate CBP's border security, commercial enforcement, and trade 
facilitation missions to more effectively meet the unique challenges 
faced in the Arizona area of operations. We also are improving 
coordination with military forces on the Southwest border. In 
partnership with the Drug Enforcement Administration (DEA), and with 
support from the Department of Defense, DHS is standing up the new 
Border Intelligence Fusion Section (BIFS) in the El Paso Intelligence 
Center, which will integrate and synthesize all available Southwest 
border inteligence from Federal, State, local, and Tribal partners to 
create a common inteligence picture to support border enforcement 
activities on the Southwest border. By disseminating real-time 
operational inteligence to our law enforcement partners in the region, 
BFIS will streamline and enhance coordinated Federal, State, local, and 
Tribal operations along the border. Additionally, we are continuing to 
work with Mexico to develop an interoperable, cross-border 
communications network that will improve our ability to coordinate law 
enforcement and public safety issues.
    Moreover, CBP has increased partnerships with Federal, State, 
local, and Tribal law enforcement agencies, as well as with the public 
and private sectors, as coordination and cooperation among all entities 
that have a stake in our mission has been, and continues to be, 
paramount. CBP is working closely with Federal, State, local, Tribal, 
and international partners to increase inteligence and information 
sharing. A Processing, Exploitation, and Dissemination (PED) cell has 
been established at the Air and Marine Operations Centers (AMOC) in 
Riverside, CA and Grand Forks, ND to enable essential information to be 
provided to law enforcement across the Nation--increasing understanding 
of evolving threats and providing the foundation for law enforcement 
entities to exercise targeted enforcement in the areas of greatest 
risk. This inteligence-driven approach prioritizes emerging threats, 
vulnerabilities, and risks--greatly enhancing our border security 
efforts.
    An example of our collaborative efforts along the Southwest border 
is the Alliance to Combat Transnational Threats (ACTT) in Arizona. ACTT 
is a collaborative enforcement effort, established in September 2009, 
that leverages the capabilities and resources of more than 60 Federal, 
State, local, and Tribal agencies in Arizona and the Government of 
Mexico to combat individuals and criminal organizations that pose a 
threat to communities on both sides of the border. Through ACTT, we 
work with our Federal, State, local, and Tribal law enforcement 
partners to increase collaboration; enhance inteligence and information 
sharing; and develop coordinated operational plans that strategically 
leverage the unique missions, capabilities, and jurisdictions of each 
participating agency. Since its inception, ACTT has resulted in the 
seizure of more than 1.6 million pounds of marijuana, 3,800 pounds of 
cocaine, and 1,000 pounds of methamphetamine; the seizure of more than 
$13 million in undeclared U.S. currency and 268 weapons; nearly 14,000 
aliens denied entry to the United States at Arizona ports of entry due 
to criminal background or other disqualifying factors; and 
approximately 270,000 apprehensions between ports of entry.
    While there is still work to be done, every key measure shows we 
are making significant progress along the Southwest border. Border 
Patrol apprehensions--an indicator of illegal immigration--have 
decreased 36 percent in the past 2 years, and are less than a third of 
what they were at their peak. We have matched these decreases in 
apprehensions with increases in seizures of cash, drugs, and weapons. 
Additionally, in fiscal year 2010, CBP seized $147 million in currency 
(inbound and outbound) at and between the ports of entry (POEs), a 34% 
increase from the previous fiscal year. CBP also seized 4.1 million 
pounds of narcotics, including 870,000 pounds seized at POEs, 2.4 
million pounds seized between POEs, and 831,000 pounds seized by Air 
and Marine Interdiction Agents. These numbers demonstrate the 
effectiveness of our layered approach to security. Violent crime in 
border communities has remained flat or fallen in the past decade, and 
some of the safest communities in America are at the border. In fact, 
violent crimes in Southwest border counties overall have dropped by 
more than 30 percent and are currently among the lowest in the Nation 
per capita, even as drug-related violence has significantly increased 
in Mexico.
    Nonetheless, CBP still faces significant challenges. We remain 
concerned about the drug-cartel violence taking place in Mexico and 
continue to guard against spillover effects into the United States. We 
will continue to assess and support the investments in the manpower, 
technology, and resources that have proven so effective over the past 2 
years in order to keep our borders secure and the communities along it 
safe.
                     technology and border security
    The Border Patrol utilizes technology for detection and 
surveillance between ports of entry, enabling CBP to maximize its 
effectiveness in responding to and disrupting illicit activity. In 
other words, technology enhances situational awareness of the amount 
and types of illegal activity at the border, enabling agents to spend 
more time responding to incursions and less time detecting them.
    Along the Southwest border, the primary technology system has been 
the Remote Video Surveillance System (RVSS), a tower with a pair of day 
and night cameras, which are monitored by personnel in a given area. 
There are currently 250 of these systems deployed along the Southwest 
border. More recently, CBP has added other systems, including Mobile 
Surveillance Systems (MSSs), which are truck-mounted infrared cameras 
and radars displaying sensor information on an integrated display 
within the cab of the truck, and are considered one of the most 
technologically advanced ground-based systems. There are currently 38 
MSSs deployed along the Southwest border. In addition, there are more 
than 130 aircraft (planes and helicopters) and 4 UASs deployed to the 
Southwest border. Among the aircraft deployed to the border are 
specialized, twin engine surveillance aircraft outfitted with a variety 
of sensors. Two additional Multi-role Enforcement Aircraft are 
scheduled to be delivered in May. These aircraft will provide robust 
capabilities for surveillance and interdiction support over both the 
land border and the maritime approaches. To increase effectiveness and 
enhance situational awareness, these various aviation resources are 
tied together by information sharing tools.
                          sbinet re-assessment
    The Secure Border Initiative-network (SBInet) program, as conceived 
in 2005, was intended to cover the entire Southwest border with a 
highly integrated set of fixed sensor towers. Since its inception, 
however, SBInet experienced repeated technical problems, cost overruns 
and schedule delays which raised serious questions about the system's 
ability to meet the needs for technology along the border. Given these 
issues, in 2009, Secretary Napolitano asked CBP for an analysis of the 
SBInet program. Based on this analysis, Secretary Napolitano froze 
funding for SBInet beyond the on-going, initial deployments of Block 1 
and ordered a Department-wide reassessment of the SBInet program that 
incorporated an independent, quantitative, science-based Analysis of 
Alternatives to determine if SBInet was the most efficient, effective, 
and economical way to meet our Nation's border security needs with 
respect to technology. The assessment focused on two fundamental 
questions: Whether or not the SBInet system was technically viable; and 
if SBInet was viable, whether it was cost-effective relative to other 
lower-cost technologies and systems which could provide needed 
surveillance capabilities.
    The issue of viability was evaluated within the context of the 
initial SBInet configuration, known as SBInet Block 1, which has been 
completed in two areas of the Arizona border--Tucson-1 (TUS-1) and AJO-
1. Although it is too early to quantify the effectiveness of the SBInet 
Block 1 technology, the qualitative assessments from the Border Patrol 
suggest that select elements of the technology such as sensor towers, 
integrated together to observe localized areas, enhanced operational 
capabilities in some parts of the border. In the case of TUS-1, the 
Border Patrol experienced improved situational awareness and increased 
apprehensions of illegal entrants when they first started using the 
system despite no apparent increase in illegal traffic. Over time, the 
Border Patrol observed a decrease in activity, and consequently, 
realized a fewer number of apprehensions. It appears that the use of 
the TUS-1 system, combined with increased personnel and tactical 
infrastructure, contributed to decreasing the flow of illegal entrants 
and increasing the likelihood of apprehension.
    To assess the cost-effectiveness of SBInet, DHS conducted an 
Analysis of Alternatives (AoA). In the AoA, DHS quantified relative 
effectiveness and relative costs of various technology solutions, and 
compared these measures for each option. The results of the AoA showed 
that the selection of technology for a given area of the border is 
highly dependent on the nature of that area (e.g., terrain, population 
density). Therefore, the SBInet concept of a ``one size fits all'' 
solution is not appropriate across the entire border. In fact, the AoA 
suggested that the optimal technology deployment strategy would involve 
a mix of technologies tailored to each area of the border and based on 
the operational judgment of the experienced Border Patrol agents 
deployed in that area.
                     new technology deployment plan
    After completion of the AoA, CBP used the results to develop a 
detailed technology deployment plan for different border regions across 
Arizona based on current and anticipated operational activity. 
Accordingly, the new plan incorporates both the quantitative analysis 
of science and engineering experts and the real-world operational 
assessment of agents on the ground and in the air.
    The new border security technology plan will utilize existing, 
proven technology tailored to the distinct terrain and population 
density of each border region, including commercially available MSSs, 
Unmanned Aircraft Systems, thermal imaging devices, and tower-based 
RVSSs. Where appropriate, this technology plan will also include 
elements of the former SBInet program that have proven successful, such 
as stationary radar and infrared and optical sensor towers.
    This new technology plan will provide better coverage of the 
border, a more effective balance between cost and capability tailored 
to each area of the border, faster deployment of technology, more 
continuous and extensive surveillance of the Southwest border, and 
better linkage between operations and technology. Through investments 
in portable technology, the new plan provides flexible capabilities 
that will enable the Border Patrol to move and adapt to evolving 
threats. As part of the Southwest Border supplemental, CBP is 
developing new Mobile Response Teams to provide surge capabilities to 
send Border Patrol into a particular area of the border. The Department 
recognizes that, as we tighten the security of one area, our 
adversaries will attempt to find new routes in other areas. A more 
mobile and flexible response capability will allow us to move with the 
changes in illegal activity.
    Based on the Border Patrol's assessment of priority needs and the 
Department's 2011 and 2012 budget requests, the Department intends to 
initiate procurements for the Remote Video Surveillance Systems and 
cameras, thermal imaging systems, Agent-Portable Surveillance Systems, 
imaging sensors, Unattended Ground Sensors, and Mobile Video 
Surveillance Systems in fiscal year 2011, with deliveries scheduled 
between 2011 and 2012. The integrated fixed towers will follow starting 
with procurements in early fiscal year 2012.
    The Department does not intend to use the existing Boeing contract 
for procurement of any of the technology systems included in the new 
Southwest border technology plan. Going forward, the Department will 
conduct full and open competition for all elements of the new 
technology plan.
             budgeting for the new arizona technology plan
    The budget for the Arizona technology investment plan will be 
managed by CBP as part of the existing Border Security Fencing, 
Infrastructure, and Technology (BSFIT) account. The budget line item is 
called ``alternative border technology,'' and comprises the projects 
identified in the Arizona technology plan (e.g., Integrated Fixed 
Towers, Remote Video Surveillance Systems, Agent Portable Surveillance 
Systems).
    The original fiscal year 2011 President's budget request for BSFIT 
technology was largely centered on the former SBInet plan. Recently, 
the Department provided to Congress a report outlining the results of 
the AoA, the resulting Arizona Technology Plan, and the termination of 
further SBInet investment. CBP recommended to Congress a revised fiscal 
year 2011 BSFIT spend plan that would re-allocate $185 million for 
procuring the proposed technology systems covering all of Arizona, 
except for the Integrated Fixed Towers. The fiscal year 2012 
President's budget request will allow for the deployment of Integrated 
Fixed Towers to Nogales, Douglas, and Casa Grande Stations, and these 
new resources combined with the fiscal year 2011 funding will allow CBP 
to fully complete three out of five border areas in Arizona.
                  next steps for technology deployment
    The Department is in the process of conducting the same type of 
analysis along the entire Southwest border as was conducted on the 
Arizona border. The next three focus sectors are El Paso, San Diego, 
and Rio Grande Valley. The initial Analysis of Alternatives for these 
three sectors is complete, and the Border Patrol operational assessment 
is currently underway.
    Following these three high-priority sectors, the Department will 
complete the same process for the remaining sectors along the Southwest 
border. This will result in an optimum technology deployment plan for 
the entire Southwest border.
             future northern border technology deployments
    Over the past 2 years, we have made critical security improvements 
along the Northern border--investing in additional law enforcement, 
technology, and infrastructure. Currently, we have more than 2,200 
Border Patrol agents on the Northern border--a 700 percent increase 
since 9/11--and nearly 3,800 CBP Officers managing the flow of people 
and goods across ports of entry and crossings. With Recovery Act funds, 
we are in the process of modernizing more than 35 land ports of entry 
along the Northern border to meet our security and operational needs. 
We have also deployed new technology along the Northern border, 
including thermal camera systems, Mobile Surveillance Systems, and 
Remote Video Surveillance System and recently completed the first long-
range CBP Predator-B unmanned aircraft patrol that extends the range of 
our approved airspace along the Northern border by nearly 900 miles.
    We have also expanded our strong partnerships with Federal, State, 
local, and Tribal agencies, as well as the Canadian government, in 
protecting our communities, borders and critical infrastructure from 
terrorism and transnational crime. CBP is working closely with the 
Royal Canadian Mounted Police (RCMP) and the Canada Border Services 
Agency (CBSA) to enhance coordination on port operations, conduct joint 
operations between POEs, and jointly deploy new technology. In 
conjunction with CBSA and RCMP, CBP recently announced the release of a 
joint border threat assessment, which provides U.S. and Canadian 
policymakers, resource planners, and other law enforcement officials 
with a strategic overview of significant threats--to include drug 
trafficking, illegal immigration, illicit movement of prohibited or 
controlled goods, agricultural hazards, and the spread of infectious 
disease--along the U.S.-Canadian border. To enhance cross-border 
security and increase the legitimate flow of people, goods, and 
services between the United States and Canada, last month President 
Obama and Prime Minister Harper of Canada jointly announced a new bi-
lateral initiative, ``Beyond the Border: A Shared Vision for Perimeter 
Security and Economic Competitiveness.'' By increasing collaboration 
with Federal, State, local, and Tribal law enforcement agencies, and by 
working in concert with the Government of Canada, we can streamline our 
operations and utilize our resources in the most effective and 
efficient manner possible.
    To continue to bolster our Northern border security efforts, our 
fiscal year 2012 budget request includes $55 million to support 
investments in technology systems that address security needs for the 
Northern border maritime and cold weather environment, as well as 
innovative technology pilots. It will also deploy proven, stand-alone 
technology that provides immediate operational benefits. These 
demonstrations and deployments explore how best to integrate various 
border security organizations and mission operations in order to 
enhance border security in this challenging environment.
    In the coming year, CBP plans to continue to expand joint 
operations by forming a joint command with the U.S. Coast Guard in the 
Great Lakes Region. The Air and Marine Operations Center (AMOC), which 
includes representatives from the U.S. Coast Guard, as well as other 
agencies, provides a comprehensive picture of the air environment in 
the United States. The AMOC can monitor violations of U.S. airspace, 
track potentially dangerous aircraft, and coordinate and direct an 
operational response. Our fiscal year 2012 budget request continues to 
strengthen the AMOC by fully incorporating the U.S. Coast Guard into 
AMOC management and decision-making, and expanding AMOC's inteligence 
capability.
                               conclusion
    Chairwoman Miller, Ranking Member Cuellar, and Members of the 
subcommittee, thank you for this opportunity to testify about the work 
of U.S. Customs and Border Protection. CBP is committed to providing 
our front-line agents and officers with the tools they need to 
effectively achieve their primary mission of securing America's 
borders. We look forward to answering any questions you may have at 
this time.

    Mrs. Miller. Thank you very much, Mr. Borkowski.
    The Chairwoman now recognizes Major General Salazar for his 
testimony.
    Major General.

  STATEMENT OF MAJOR GENERAL HUGO SALAZAR, ADJUTANT GENERAL, 
                     ARIZONA NATIONAL GUARD

    Major General Salazar. Good morning, Chairwoman Miller, 
Ranking Member Cuellar, Members of the subcommittee. I have the 
privilege of being appointed as the adjutant general by my 
Governor, and I appear here this morning representing the 7,500 
men and women in the Arizona National Guard as the adjutant 
general.
    As everyone knows, the Arizona National Guard has a dual 
mission, State and Federal mission, but what I am here for this 
morning is to discuss another mission, which is the support 
that we provide our law enforcement agencies in the State of 
Arizona through two different missions, as you mentioned, 
Chairwoman Miller, as well as the Joint Counter Narcotics Task 
Force, which I will talk about briefly.
    The National Guard--program was created in 1989. It 
authorizes up to 4,000 National Guard men and women to serve in 
support of law enforcement agencies. In Arizona that program is 
called the Joint Counter Narco Terrorism Task Force, which is a 
mouthful and will be referred to as JCNTF.
    Since 1989 JCNTF has continued to provide mission support 
to law enforcement, providing a variety of different types of 
missions, which I will discuss briefly. We currently support 
over 30 law enforcement agencies and fusion centers, and we 
perform primarily linguist support, investigative analyst 
support, communications support, and the air and ground 
reconnaissance observation mission.
    In JCNTF the Governor does have the ability to conform the 
State plan and prioritize the mission sets. In this case our 
Governor has directed that I shift as many resources available 
to form what we call the ground reconnaissance mission, and she 
considers that a high-value mission, and we will continue to do 
so as the resources become available.
    Madam Chairwoman Miller, you mentioned Operation Jump 
Start. That was the first Presidential declared operation in 
2006, 2008. In that particular mission there were 6,000 
National Guard personnel authorized the first year, 3,000 the 
second year. Of that we received 40 percent of the workforce, 
and so we had a substantial number of National Guard personnel 
rotating through the State of Arizona for 2 years in support of 
the mission sets that were dictated by the Department of 
Homeland Security.
    The primary missions that were provided there were entry 
identification teams, which are personnel on a high ground, 
basically, using different types of technology. There is always 
some type of technology with these entry identification teams, 
providing the eyes and ears for Border Patrol and communicating 
what we see through those agents as we see them.
    These operations are always going for 24 hours, 7 days a 
week non-stop, and we rotate our soldiers and airmen through 
those positions. In addition to the entry identification teams 
in Operation Jump Start, there was quite a bit of maintenance 
and engineering and aviation support as well.
    A second mission, which is the mission that we are 
currently performing, is called Operation Phalanx. This was 
authorized by the President in July of last year, with 
operations beginning on 1 October of last year. That mission is 
scheduled to end this June with operations basically ceasing 
the first or second week of June because of the funding.
    The funding for Operation Phalanx was initially a program 
for $135 million, and that number has been subsequently reduced 
to $110 million. That authorized 1,200 National Guard personnel 
for the four Southwest border States.
    Again, because of the prioritization, Arizona received in 
this case 46 percent of those forces, which equates to 560 
personnel that we have had on the borders supporting Customs 
and Border Patrol, performing primarily entry identification 
teams, eyes and ears of 24 hours a day, 7 days a week, along 
with a variety of different entry identification positions in 
near proximity to the Arizona-Mexican border.
    In addition to the entry identification teams, there is a 
small handful that provide camera support as well as 
inteligence analysis. But Operation Phalanx, the No. 1 priority 
is entry identification team observation again.
    As the adjutant general, I am extremely proud of the 
support and demonstrated professionalism members of our 
National Guard provide law enforcement through the enduring--
and during mission of the counter drug support program, 
Operation Jump Start, and Operation Phalanx.
    The unique skill sets that the military brings to bear in 
support of law enforcement agencies is a force multiplier and 
enhances the operational capabilities of the law enforcement 
agencies we are supporting.
    Rather than short-term missions like Operation Jump Start 
and Operation Phalanx, an argument can be made that the 
military support to law enforcement would be better served by 
increasing a sustained National Guard JCNTF program. This 
argument was reinforced in March 2009 and again in April 2010 
by the Governor of Arizona, when she formally requested 
additional aviation and an increase in JCNTF of the President 
and the Secretary of Defense.
    I appreciate the opportunity to be here this morning, and I 
am here today to invite your questions and comments. Thank you.
    [The statement of General Salazar follows:]
          Prepared Statement by Major General Hugo E. Salazar
                             March 15, 2011
                            opening remarks
    Chairwoman Miller, Ranking Member Cuellar, distinguished Members of 
the subcommittee; I am honored to represent the men and women of the 
Arizona National Guard. Since September 11, 2001, over 9,000 of our 
Arizona Soldiers and Airmen have been mobilized and served, or are 
currently serving in harm's way.
    As you know, the National Guard has a dual mission and must be 
ready and capable of performing both its State and Federal mission. In 
addition to serving the Nation on a Federal deployment or mobilization, 
members of the National Guard also serve the State and as such, stand 
ready if called upon by the Governor when needed to assist in disaster 
response to protect the lives and property of the citizens of the 
State. As The Adjutant General of Arizona, I am a Federally recognized 
General Officer but also have the privilege of serving as a State 
employee appointed by our Governor to serve as the Director of the 
Arizona Department of Emergency and Military Affairs. Today, I appear 
before you in a State status representing the State of Arizona in my 
capacity as The Adjutant General and Director of the Arizona Department 
of Emergency and Military Affairs.
    The dual mission and locality of National Guard forces located 
throughout our communities make us a viable option for assisting both 
our Nation and State in times of crisis. In addition to the 
mobilizations already mentioned, the last 5 years have included a 
response by the Arizona National Guard to two separate Presidential 
declarations to enhance the efforts of the Department of Homeland 
Security (DHS); specifically, U.S. Customs and Border Protection (CBP) 
with detecting and deterring illegal activity along our border with 
Mexico. I would like to take the opportunity today to address the role 
of the Arizona National Guard with respect to these efforts.
      national guard status--state active duty, title 32, title 10
    Before discussing National Guard operations on the Southwest 
Border, it is important to note the various authorities that Soldiers 
and Airmen can operate under, as these directly impact mission sets, 
command and control, and ultimately organization readiness. There are 
three different statuses that a National Guard Service Member can 
operate under while performing military duties: ``State Active Duty,'' 
``Title 32,'' or ``Title 10''.
    Under State active duty status, the National Guard is, at all 
times, a State Government entity operating under the command and 
control of the Governor of Arizona and the Adjutant General. National 
Guard forces under State Active Duty are paid with State funds and 
perform duties authorized by the Governor and in accordance with State 
law. While National Guard forces are in a State Active Duty status, the 
Posse Comitatus Act (18 U.S. Code,  1385), which restricts Federalized 
troops from performing law enforcement duties, does not apply because 
they are not under the command and control of the Federal Government. 
The Posse Comitatus Act, along with its supporting legislation and 
regulations, precludes Federal military forces from acting as a primary 
instrument of law enforcement. It has come to symbolize the separation 
of civilian affairs from military influence. Nonetheless, National 
Guard troops in a State Active Duty status may participate in law 
enforcement duties in accordance with the applicable provisions of 
State law and as directed by the Governor of Arizona.
    The U.S. Constitution also authorizes the National Guard to operate 
under State control but in the service of the Federal Government--
``Title 32''. Title 32 of the U.S. Code, authorizes the use of, and 
provides Federal funds to National Guard forces performing a Federal 
mission while under the command and control of their respective 
Governor. For example, National Guard forces were deployed by Governors 
using Federal funds and in compliance with prescribed Federal 
operational standards to our Nation's airports following the terrorist 
attacks of September 11, 2001. Although, Federal appropriations were 
used to fund National Guard forces for a Federal mission, Posse 
Comitatus did not apply because National Guard forces were not under 
the command and control of the Federal Government, but rather with 
their respective Governors.
    Title 32 funds are also provided to National Guard forces to 
prepare and train Service Members for Federal missions. Title 32 U.S. 
Code  502(a) authorizes Federal funding for weekend drills and annual 
training assemblies to ensure unit readiness and military skill-sets. 
If National Guard forces are needed on a full-time basis, section 
502(f) provides for funds in addition to those requirements under 
502(a). When National Guard forces are under Title 32 duty status, 
section 502(f) of the same title provides for Federal funds to execute 
the Federal mission. However, while troops are executing their mission 
under 502(f), as a matter of fiscal policy, there is no requirement for 
those troops to attend their monthly unit training assembly each month 
or their 2-week annual training as provided for in section 502(a). A 
review of the fiscal policy under 502(f) is needed to grant Governors 
and Adjutant Generals the option of requiring Title 32 troops to attend 
the monthly training requirements under 502(a) to maintain unit 
readiness and not degrade military skill-sets.
    A good example of requiring troops to attend drill while performing 
the duties as a full-time National Guard member is the Arizona National 
Guard's counter-drug program. Title 32  112 provides for the 
authorization and funding for the Joint Counter Narco-Terrorism Task 
Force, the Arizona National Guard's counter-drug program. Under this 
section, National Guard members may be ordered to perform full-time 
National Guard duty under section 502(f) of Title 32 to support the 
Federally mandated counter-drug program. However, section 112(b)(2)(A) 
requires National Guard members to also participate in the training 
required under section 502(a). This is to ensure that the use of units 
and personnel of the Arizona National Guard supporting the counter-drug 
program does not degrade the training and readiness of such units and 
personnel. This requirement recognizes the importance of requiring 
National Guard members to continue to drill with their regularly 
assigned units so that the program does not degrade the readiness of 
each individual service member's assigned unit.
    Finally, in addition to State Active Duty and Title 32 status, 
National Guard troops can also be in a ``Title 10'' status. National 
Guard troops under Title 10 U.S. Code are Federally funded and Federal 
controlled for National defense purposes. The Federal Government has 
the authority to ``Federalize'' National Guard forces to mobilize and 
deploy troops for Federal missions. These troops are commonly known to 
be in ``Title 10 duty status,'' meaning that the President and the 
Federal Government solely command and control units under this title. 
This approach places the Federalized National Guard forces in Title 10 
status under the Command and Control of the President, the Secretary of 
Defense, and a Combatant Commander. It severs the National Guard's 
relationship with its State Governor.
           arizona border operations--historical perspective
    Geographically speaking, Arizona has a total area of just over 
113,998 square miles and is the sixth-largest State in the Union. With 
an estimated population of well over 6 million, Arizona is currently 
ranked as the second-fastest-growing State by the U.S. Census Bureau. 
Arizona shares 389 miles of international border with Mexico and has 
seven major Ports of Entry. Found between Arizona's ports of entry are 
a variety and combination of barriers that include pedestrian fencing, 
vehicle fencing, Normandy barriers, triple strand barbed wire fencing 
and cattle guard crossings located on Tohono O'odham Indian Reservation 
only.
        joint counter narco-terrorism task force (1989-current)
    Pursuant Title 32, section 112 of the U.S. Code, the National Guard 
Counter Drug program is authorized up to 4,000 National Guard members 
performing drug interdiction or counterdrug activities in all 54 States 
and territories. In Arizona, the State Counter Drug program is referred 
to as the Joint Counter Narco-Terrorism Task Force (JCNTF). JCNTF began 
operations in 1989 and is currently the third largest (behind 
California and Texas) of all National Guard counterdrug programs in the 
States and territories. The mission of the JCNTF is to provide military 
counterdrug and drug demand reduction support to local, State, and 
Federal law enforcement agencies and community-based organizations.
    The JCNTF is currently staffed with 81 Army National Guard Soldiers 
and 46 Air National Guard Airmen totaling 127 personnel serving on Full 
Time National Guard Duty status in accordance with United States Code, 
Title 32, Section 112. These Soldiers and Airmen are assigned to 
National Guard units throughout the State and are authorized to perform 
``Support-Only'' Counter Drug duties.
    According to the President's budget request, the National Guard 
Counter Drug Program is expected to remain flat for fiscal year 2012, 
which, due to the rising cost of conducting business, continues to 
slowly reduce the support available to Law Enforcement agencies. 
Arizona's program has shrunk over the years from a program consisting 
of well over 300 personnel in the early 1990s to a program of 
approximately only 130 personnel today.
    In fiscal year 2010, JCNTF's support to local, State, and Federal 
drug law enforcement agencies resulted in a total of $7,025,300 in 
property, 801 weapons, 450 vehicles and $39,634,210 in cash seized or 
recovered. In addition, 1,421 lbs of cocaine, 4.3 lbs of crack, 150 lbs 
of heroin, 131,221 lbs of marijuana, 726 lbs of methamphetamines and 
20,044 marijuana plants were seized during operations supported by 
members of the Arizona National Guard serving on JCNTF.
    The JCNTF currently provides Supply Reduction support to over 30 
law enforcement agencies and fusion centers such as the Metro 
Intelligence Support and Technical Investigation Center throughout the 
State. Currently, approved JCNTF support missions include the following 
categories:
    Linguist Support (2a).--Supports over 30 agencies with transcribing 
pre-recorded tapes and other Spanish media in direct support of 
criminal investigations.
    Investigative Case and Analyst Support (2b).--Embedded analysts in 
law enforcement offices throughout the State of Arizona serve to 
improve information sharing between Federal, State, and local agencies; 
provide deconfliction of on-going narcotics investigations; result in 
better utilization of law enforcement resources; and enable supported 
agencies to affect accurate strategic analysis for key Southwest border 
initiatives such as Domestic Highway Enforcement.
    Communication Support (2d).--Technical experts are assigned to law 
enforcement agencies such as the United States Customs and Border 
Protection at their stations along the international border and assist 
with command and control operations. This support requires the mastery 
of many complex monitoring devices, cameras, ground sensors, and voice 
communication equipment and directly enhances officer safety in the 
field.
    Surface Reconnaissance (Nighthawk) (5a).--JCNTF's ground 
reconnaissance teams support local, State, and Federal law enforcement 
agencies with uniquely suited advanced optical technology such as the 
FLIR RECON III system. These teams operate covertly in support of law 
enforcement in field conditions and provide military-specific skills to 
supported agencies' interdiction efforts against the flow of drugs that 
enter the United States between Arizona's Ports of Entry. Based on 
input from the Arizona Governor, the JCNTF is shifting available 
resources towards its ground reconnaissance mission in order to 
increase the footprint along the international border with what is a 
proven military unique skill-set. Over the past 12 months, we have 
added an additional Nighthawk team and will continue to shift JCNTF 
resources to this mission as resources become available. Since 1 
October 2010, Arizona Nighthawk teams have been instrumental in the 
seizure of over 17,000 pounds of marijuana, 25 weapons, assorted 
confiscated equipment, and the apprehension of over 200 smugglers and 
undocumented aliens. When compared to the annual budget for the entire 
JCNTF program, this mission alone provides a complete return on 
investment for the operating cost of the entire 130 member task force.
    Aerial Reconnaissance (5b).--JCNTF employs both the OH-58 
helicopter and RC-26 fixed-wing aircraft as aerial observation assets. 
Arizona National Guard OH-58 helicopters are available to support law 
enforcement during both day and night operations using Forward Looking 
Infrared systems, thermal imaging reconnaissance, Aviator's Night 
Vision Imaging System, live video downlink and Nightsun illumination 
systems. The RC-26 aircraft is employed as a regional asset for high 
value counter-drug and narco-terrorism cases. This Air National Guard 
fixed-wing platform provides superior stand-off capability for covert 
operations. Both aerial assets provide enhanced officer safety, 
improved interdiction operations in remote drug corridors, and other 
forms of valuable aerial command and control capabilities.
    Demand Reduction Support (6).--Drug Demand Reduction (DDR) teams 
work closely with community-based organizations and support the 
specific needs of local communities and school systems. All DDR efforts 
are focused on identifying, supporting, educating, and mentoring/
coaching Arizona youth in collaboration with local community 
organizations.
               operation jump start (june 2006-july 2008)
    Operation Jump Start was a Presidentially-declared, 2-year, $1.2 
billion program spread across the four Southwest Border States. The 
mission required 6,000 Guardsmen the first year and 3,000 the second 
year. The Department of Homeland Security and Customs and Border 
Protection allocated forces based on their assessed needs that resulted 
with Arizona receiving 40% of the forces--the largest percentage of the 
four Southwest Border States. Guard members from 51 of the 54 States 
and Territories served in Arizona performing duties that included Entry 
Identification Teams, camera operators, logistical support, aviation 
support, and engineering support. During the first year of Operation 
Jump Start, an average of 2,400 National Guard personnel conducted 
operations in support of law enforcement efforts in Arizona. That 
number was reduced to 1,200 personnel the second year.
                 operation phalanx (july 2010-current)
    Operation Phalanx authorizes 1,200 Soldiers and Airmen across the 
four Southwest Border States to support the Department of Homeland 
Security. Arizona was authorized 560 of the 1,200 personnel for the 
mission which equates to 46%. Operations began in Arizona on 1 Oct 2010 
and plans are currently being finalized to end all operations in June 
2011.
    Like Operation Jump Start, National Guard personnel are funded 
under Title 32  502(f)--in accordance with the published Department of 
Defense order. The authorized missions for Operation Phalanx are: Overt 
Entry Identification Teams (EIT); Remote Video Surveillance System 
support; and Intelligence Analysts to support DHS. These mission sets 
were selected by DHS without input from the respective State Governor 
or Adjutant General and support was limited to only DHS Federal law 
enforcement agencies. The key differences between Operation Jump Start 
and Operation Phalanx are primarily in the total number of personnel 
authorized for the missions as well as the types of approved mission 
sets. Unlike Operation Jump Start where aviation and engineer support 
were significant, aviation and engineer support are not authorized for 
Operation Phalanx. Additionally, unlike Operation Jump Start, all 
National Guard personnel on orders in Arizona during Operation Phalanx 
are organic to the Arizona National Guard.
    Of the 560 personnel authorized for Operation Phalanx in Arizona 
the majority of the personnel are tasked to support entry 
identification sites that operate on a 24-hour basis in close proximity 
to the Arizona-Mexico border. Due to the increased threat and violence 
along the International Border, Arizona National Guard personnel are 
armed and assume a higher arming status than similar missions during 
Operation Jump Start. Rules for the Use of Force have been clearly 
defined, published, and provided to each member on the mission. Two of 
the entry identification sites are supported with a Mobile Surveillance 
System provided by Customs and Border Protection. All entry 
identification team sites and camera support operations are conducted 
in the Tucson Sector of Customs and Border Protection.
    Funding for Operation Phalanx was initially programmed for $135 
million but was reduced to $110 million. The cost of Arizona's portion 
during Operation Phalanx is estimated at $34 million through 30 June 
2011.
    During Operation Phalanx, Arizona initiated numerous cost-saving 
measures focused on a solid relationship with Davis Monthan Air Force 
Base, Fort Huachuca and law enforcement partners. Use of existing 
active duty installations for lodging and contracted apartments saved 
an estimated $25,000 per day in lodging expenses. More importantly, it 
also bolstered force protection and increased the safety for Soldiers 
and Airmen. The relationship with law enforcement partners has been 
exceptional with a positive partnership at all levels. Border Patrol 
equipment (radios, vehicles, and thermal technology) has been entrusted 
with our National Guard Soldiers and Airmen to enhance operations. 
Additionally, using law enforcement provided equipment when available 
has resulted in significant savings to the Arizona National Guard.
    One of the limitations of having personnel on orders during 
Operation Phalanx is a direct result of the type of funding source: 
Title 32, Section 502(f). Personnel on 502(f) orders with Operation 
Phalanx are not authorized, except under certain circumstances, to 
attend monthly drills at their parent Arizona National Guard unit. This 
creates a negative impact on unit readiness and especially when the 
individual volunteering to serve on Operation Phalanx is in a 
leadership position at his/her unit.
    Throughout the duration of Operation Phalanx, the Arizona National 
Guard has supported the Department of Homeland Security in a 
commendable manner and the working relationship between National Guard 
and Law Enforcement has been nothing short of exemplary. Currently, 
Arizona National Guard plans are being finalized to end Operation 
Phalanx on 30 June 2011. To complete all administrative and logistical 
actions required, operations will effectively stop no later than the 
second week of June.
                            closing remarks
    As the Adjutant General of the Arizona National Guard, I am 
extremely proud of the support and demonstrated professionalism members 
of the National Guard have provided law enforcement agencies during 
Operation Jump Start, Operation Phalanx, and the long-standing State 
counter drug support program. The unique skill sets the military brings 
to bear in support of law enforcement agencies act as a force 
multiplier in their continued efforts to secure the international 
border and deter the flow of illegal drugs and associated violence 
along the border.
    The Arizona National Guard's Joint Counter-Narco Terrorism Task 
Force has enjoyed a positive working relationship with local, State, 
and Federal law enforcement agencies for over 20 years. JCNTF soldiers 
and airmen are aware of the impact they are making in the counter drug 
and border security arenas, and individual readiness is enhanced from 
their experience performing real-world missions on a daily basis. This 
readiness makes our military units stronger and better trained for war-
time missions.
    The Arizona JCNTF is currently staffed with 127 personnel serving 
on Full Time National Guard Duty status. The military unique skill 
sets, training, and specialized equipment that Arizona National Guard 
members bring to the mission enhance the operational capabilities of 
the law enforcement agencies they support. Rather than short-term 
operations such as Operation Jump Start and Operation Phalanx, an 
argument can be made that military support to law enforcement efforts 
would be better served with an increase in funding to JCNTF. Increasing 
JCNTF support would allow law enforcement elements--potentially in all 
jurisdictions--to more effectively synchronize, plan, and integrate 
National Guard resources and personnel, knowing they will have a 
sustained and predictable level of support from JCNTF for an extended 
period of time. This argument was reinforced on 11 March 2009 and 6 
April 2010 when, to support the growing instability along the Arizona-
Mexico border, the Governor of Arizona formally requested additional 
aviation assets and an increase in JCNTF personnel of the President and 
the Secretary of Defense.
    I appreciate the opportunity to be here today and invite your 
questions and comments.

    Mrs. Miller. Thank you very much, General.
    At this time I recognize Mr. Stana for his testimony.

STATEMENT OF RICHARD M. STANA, DIRECTOR, HOMELAND SECURITY AND 
           JUSTICE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stana. Thank you, Chairwoman Miller and Mr. Cuellar, 
for the opportunity to testify at this morning's hearing.
    After over 4 years and $1 billion, Secretary Napolitano in 
January ended the SBInet program as originally conceived, 
because it just doesn't meet cost-effectiveness and viability 
standards. In its place the alternative Southwest border 
technology program is one which I believe, Chairwoman Miller, 
you described in your opening statement and Mr. Borkowski will 
probably describe in greater detail in his question-and-answer 
period.
    But it consists of RBSs, MSSs, underground sensors, 
handheld devices, and integrated fixed towers, which look an 
awful lot like the towers, or will probably look an awful lot 
like the towers, in the SBInet program.
    For fiscal year 2011 DHS plans to use $185 million of funds 
to begin the process of getting the non-towered technology buys 
done. This would be the RBSs, MSSs, underground sensors, 
handheld devices and so on. For fiscal year 2012 in the 
President's budget, CBP has requested $242 million to fund the 
first three of five planned integrated fixed tower buys, okay, 
the first three sectors.
    The fourth and fifth will be downstream. There will be a 
total of five for a total cost of about $570 million. So all 
told, we are planning on spending about $755 million in Arizona 
alone and would essentially leave a gap of about 62 miles on 
the Tohona O'odham nation, where none of this technology is 
likely to be fielded.
    If funding is approved, the integrated fixed tower 
deployments in Arizona will likely begin in March 2013 and will 
likely be finished by 2015 or maybe early 2016. Then the 
process goes down the border until about 2021 or 2026, 
depending on which estimate we use. The whole border will be 
covered by the new technology deployment program.
    Our work is on-going. We are doing the work for this 
committee and this subcommittee, and I would like to just share 
a few preliminary observations.
    First, just to clarify things, the decision to cancel the 
SBInet program pertained to the now obsolete SBInet system. It 
did not pertain to the concept, or the underlying concept, of 
using fixed towers with cameras, radars that feed into a COP. 
That is likely still on the table, although it might not have 
the same configuration that the current system has.
    Second, the contract was not canceled with Boeing, but 
rather its use will be limited to operation and maintenance on 
TUS-1 and AJO-1 and maybe some other tactical infrastructure 
needs. But the contract itself is still in place.
    The second main point I would like to make is that SBInet 
capabilities are still in place and working in the TUS-1 and 
AJO-1 areas. Reports that we have had from the Border Patrol 
indicate that it is useful. It provides continuous surveillance 
and enhances the safety of the agents, because they can 
recognize threats that are close by and take appropriate 
action.
    CBP plans to add a laser target finder, which now is 
available on MSS units to the SBInet towers, which the agents 
say they would find completely useful, and they would like to 
have them.
    The third point is the technology deployments in Arizona 
were to be informed by an analysis of alternatives, or an AOA, 
that analyzed the cost-effectiveness of fixed, mobile, handheld 
and aerial components and a Border Patrol operational 
assessment, which Mr. Borkowski mentioned, to determine the 
appropriate mix of these technologies along the border.
    Now, our work to date, which is not yet finished, has 
raised a number of questions regarding the technology 
deployment plans. First, it is not clear how DHS used the AOA 
and other inputs to inform the Border Patrol's operational 
assessments to determine the appropriate mix of technology 
plans for Arizona.
    The AOAs did not show a clear-cut cost-effective technology 
alternative for any of the analysis areas, and Border Patrol 
judgment was very key in the final assessment. We have not been 
given access to the documents yet that would allow us to 
determine whether the appropriate judgments were exercised in 
arriving at the mix of technology to be fielded in the 
different sectors of Arizona. That is the key shortcoming at 
this point in our ability to analyze for you to what this new 
technology laydown really means.
    The second thing, and I would like to turn attention to the 
AOA itself, and that is they did it rather quickly. It was 
limited in scope. It didn't consider a combination of 
technologies. It didn't consider certain technology solutions 
such as MSS units.
    It didn't consider a baseline solution, nor does it 
consider the possibility of reducing Border Patrol assets and 
what additional strain there might be or need for technology 
solutions. So that is a shortfall of the AOA. Subsequent AOAs 
may consider those things.
    Another point I would like to make is the Army Test and 
Evaluation Command was to independently assess the SBInet Block 
1 capability to evaluate effectiveness and suitability. The 
results were not completed for the Border Patrol's technical 
analysis, the operational analysis which prescribed the laydown 
of different technology components, nor was it available for 
the Secretary's decision on whether to continue SBInet.
    Moreover, if we are going to use a fixed tower system 
similar to that deployed in SBInet, the results of the ATEC 
review would be very informative for the people making these 
kinds of judgments.
    I can answer other questions, you know, at the appropriate 
time, but in closing I would just like to say that the new 
alternative Southwest border technology plan is the fourth 
generation of camera tower and other technology systems that we 
have seen in the last 10 to 15 years or so.
    The first three have not met with complete success, I 
think, to be kind. I think this time we ought to get it right 
with proper planning and proper analysis and judgment 
exercised. Thank you very much.
    [The statement of Mr. Stana follows:]
                 Prepared Statement of Richard M. Stana
                             March 15, 2011
                             gao highlights
    Highlights of GAO-11-448T, testimony before the Subcommittee on 
Border and Maritime Security, Committee on Homeland Security, House of 
Representatives.
Why GAO Did This Study
    Securing the Nation's borders from illegal entry of aliens, 
contraband, terrorists, and weapons of mass destruction, is a long-term 
challenge. In November 2005, the Department of Homeland Security (DHS) 
launched the Secure Border Initiative network (SBInet)--a program which 
was to provide the Border Patrol, within DHS's U.S. Customs and Border 
Protection (CBP), with the tools to detect breaches and make agent 
deployment decisions by installing surveillance systems along the 
border. Alternative (Southwest) Border Technology is DHS's new plan to 
deploy a mix of technology to protect the border. This testimony is 
based on GAO's on-going work conducted for the House Committee on 
Homeland Security and provides preliminary observations on: (1) The 
status of SBInet and user views on its usefulness, and (2) the 
Alternative (Southwest) Border Technology plan and associated costs. 
GAO reviewed planning, budget, and system documents, observed 
operations along the Southwest border, and interviewed DHS officials.
What GAO Recommends
    GAO is not making any new recommendations in this statement but has 
made prior recommendations to strengthen SBInet. While DHS generally 
agreed most information in this statement, it did not agree with GAO's 
observations on the AOA and the potential usefulness of ATEC's 
analyses. GAO continues to believe its observations are valid. DHS also 
provided technical comments which were incorporated, as appropriate.
    border security.--preliminary observations on the status of key 
                  southwest border technology programs
What GAO Found
    In January 2011, the Secretary of Homeland Security directed CBP to 
end the SBInet program as originally conceived because it did not meet 
cost-effectiveness and viability standards, and to instead focus on 
developing terrain- and population-based solutions utilizing existing, 
proven technology, such as camera-based surveillance systems, for each 
border region. According to DHS, the Secretary's decision on SBInet was 
informed by: (1) An independent analysis of alternatives (AOA) to 
determine the program's cost-effectiveness; (2) a series of operational 
tests and evaluations by the U.S. Army's Test and Evaluation Command 
(ATEC) to determine its operational effectiveness and suitability; and 
(3) an operational assessment by the Border Patrol to provide user 
input. The Secretary also stated that while the Alternative (Southwest) 
Border Technology plan should include elements of the former SBInet 
program where appropriate, she did not intend for DHS to use the 
current contract to procure any technology systems under the new plan, 
but rather would solicit competitive bids. SBInet's current 
surveillance capability continues to be used in Arizona. Specifically, 
there are 15 sensor towers (with cameras and radar) and 10 
communication towers (which transmit the sensor signals to computer 
consoles for monitoring), currently deployed in the Border Patrol's 
Tucson Sector. In addition, on the basis of user feedback, the Border 
Patrol considers the current SBInet capability to be useful, including 
providing continuous surveillance in border areas where none existed 
before and enhancing agent safety when responding to potential threats. 
There are certain shortcomings including coverage gaps and radar 
performance limitations in adverse weather.
    The Alternative (Southwest) Border Technology plan is to 
incorporate a mix of technology, including an Integrated Fixed Tower 
surveillance system similar to that used in the current SBInet 
capability, beginning with high-risk areas in Arizona. But, due to a 
number of reasons, the cost-effectiveness and operational effectiveness 
and suitability of the Integrated Fixed Tower system is not yet clear. 
First, the AOA cited a range of uncertainties, and it is not clear how 
the AOA analyses and conclusions were factored into planning and budget 
decisions regarding the optimal mix of technology deployments in 
Arizona. Second, the ATEC independent analyses were not complete at the 
time of the Secretary's decision, thus any results on SBInet's 
operational effectiveness and suitability could not inform the 
decisions to proceed with the Integrated Fixed Tower system. The 
President's fiscal year 2012 budget request calls for $242 million to 
fund three of five future deployments of the Integrated Fixed Tower 
systems in Arizona, although, depending on funding, the earliest DHS 
expects the deployments to begin is March 2013 with completion 
anticipated by 2015 or later. Consistent with its intent to solicit 
competitive bids, CBP has initiated a new acquisition cycle, asking 
industry for information about the commercial availability of the 
Integrated Fixed Tower system. GAO will continue to assess this issue 
and report the final results later this year.
    Chairwoman Miller, Ranking Member Cuellar, and Members of the 
subcommittee: I am pleased to be here today to discuss the status of 
the Department of Homeland Security's (DHS) key technology programs for 
the Southwest border. The Secure Border Initiative Network (SBInet) 
technology program was intended to provide the Office of Border Patrol 
(Border Patrol) within DHS's U.S. Customs and Border Protection (CBP) 
with integrated imagery and related tools and information to detect 
security breaches and make agent deployment decisions by placing 
surveillance systems along U.S. borders, beginning with the Southwest 
border with Mexico. Since fiscal year 2006, DHS has received about $4.4 
billion in appropriations for SBI, of which it has allocated about $1.5 
billion for SBInet and $2.9 billion for fencing and other tactical 
infrastructure along the Southwest border. In January 2010, DHS 
initiated an internal assessment of the SBInet program and, as 
discussed below, in January 2011 the Secretary of Homeland Security 
announced her decision to end the program as originally conceived 
because it did not meet cost-effectiveness and viability standards and 
proceed with a new technology program to secure the Nation's land 
borders.
    The Department's new technology deployment plan is called 
Alternative (Southwest) Border Technology. Under this plan, DHS is to 
deploy a mix of technologies, including Remote Video Surveillance 
Systems (RVSS),\1\ Mobile Surveillance Systems (MSS),\2\ and hand-held 
equipment for use by Border Patrol agents. It also is to include a new 
Integrated Fixed Tower \3\ system, similar to that currently being used 
in SBInet, which is slated for deployment along the border where the 
Border Patrol deems it appropriate beginning with five high-risk areas 
in Arizona at an estimated cost of $570 million.
---------------------------------------------------------------------------
    \1\ An RVSS is a remotely controlled system of daylight and 
infrared cameras mounted to a permanent structure. The camera images 
are transmitted to and monitored and recorded at a central location.
    \2\ An MSS consists of camera and radar systems mounted on a truck, 
with images being transmitted to and monitored on a computer screen in 
the truck's passenger compartment.
    \3\ An Integrated Fixed Tower ``system'' consists of various 
components and program support activities. The components include fixed 
towers, sensors (cameras and radar), a data communications network, 
facilities upgrades, information displays, and an information 
management system. Program support activities include those performed 
to design, acquire, deploy, and test the system; and manage Government 
and contractor efforts.
---------------------------------------------------------------------------
    The Border Patrol is the Federal agency with primary responsibility 
for securing the border between the U.S. ports of entry.\4\ CBP has 
divided geographic responsibility for Southwest border miles among nine 
Border Patrol sectors. Within CBP, the Office of Technology Innovation 
and Acquisition (OTIA) has been responsible for overseeing the SBInet 
program. DHS reports that the Southwest border continues to be 
especially vulnerable to cross-border illegal activity, including the 
smuggling of humans and illegal narcotics. CBP reported spending about 
$3 billion to support the Border Patrol's efforts on the Southwest 
border in fiscal year 2010, and Border Patrol reported apprehending 
over 445,000 illegal entries and seizing over 2.4 million pounds of 
marijuana.
---------------------------------------------------------------------------
    \4\ A Port of Entry is an officially designated location (seaports, 
airports, or land border locations) where CBP officers or employees are 
assigned to accept entries of merchandise, clear passengers, collect 
duties, and enforce the various provisions of CBP and related laws.
---------------------------------------------------------------------------
    My statement today is based on preliminary observations and 
analyses from our on-going work regarding these programs and activities 
for the House Committee on Homeland Security. We plan to issue a final 
report on this work later this year. As requested, my testimony will 
cover the following issues:
    1. The status of the SBInet program and user views on the 
        usefulness of its technology, and;
    2. The Alternative (Southwest) Border Technology plan and costs 
        associated with these plans.
    To conduct our work, we reviewed our prior reports on the SBInet 
program, analyzed documents such as system descriptions, acquisition 
plans and proposals, budget requests and justifications, cost-
effectiveness and system-effectiveness and -suitability plans and 
analyses. Further, we observed various types of technology operating at 
command centers at the Tucson Sector and its Tucson, Ajo, and Nogales 
stations. Also, we interviewed relevant DHS (Border Patrol, OTIA) and 
prime contractor \5\ officials about matters such as the decision to 
end the SBInet program, its implications for the future of the program, 
cost-effectiveness and operational effectiveness and suitability 
analyses, and budget requests. We selected the Tucson, Ajo, and Nogales 
stations because they are located in high-risk areas along the Arizona 
border with Mexico and also because the Border Patrol has deployed 
various types of surveillance technology in these areas, including 
SBInet. We did our work for this statement from December 2010 to March 
2011. We are not making any new recommendations in this statement but 
we have made prior recommendations to strengthen the SBInet program. 
While DHS generally agreed with the approach and status described in 
this statement, it did not agree with our observations on the AOA and 
the potential usefulness of ATEC's analyses to inform future technology 
deployment decisions. GAO continues to believe its observations are 
valid and will address these issues as our study proceeds. DHS also 
provided technical comments which were incorporated, as appropriate.
---------------------------------------------------------------------------
    \5\ On September 21, 2006, CBP awarded a prime contract to the 
Boeing Company for 3 years, with 3 additional 1-year options. As the 
prime contractor, Boeing is responsible for acquiring, deploying, and 
sustaining selected SBInet technology and tactical infrastructure 
projects, and for supply chain management for selected tactical 
infrastructure projects.
---------------------------------------------------------------------------
    We are conducting our on-going work in accordance with generally 
accepted Government auditing standards. Those standards require that we 
plan and perform the audit to obtain sufficient, appropriate evidence 
to provide a reasonable basis for our findings and conclusions based on 
our audit objectives. We believe that the evidence obtained provides a 
reasonable basis for our findings and conclusions, based on our audit 
objectives.
dhs has ended the sbinet program but not the contract or key technology 
                 capability which users consider useful
    After an internal assessment initiated in January 2010, the 
Secretary of Homeland Security announced in January 2011 that she had 
directed CBP to end the SBInet program as originally conceived. 
According to DHS, the Secretary's decision was informed by an 
independent analysis of cost-effectiveness, a series of operational 
tests and evaluations, and Border Patrol input. The prime contractor is 
to continue limited performance under the SBInet contract using a 1-
year option for SBInet operations and maintenance services in Arizona 
beginning on April 1, 2011, with a possible 6-month extension. Further, 
according to CBP and the contractor, following a March 2010 decision by 
the Secretary halting further deployment of SBInet beyond the Tucson 
and Ajo Border Patrol stations, no additional SBInet deployments are 
expected.
    In addition, the Secretary's decision to end the SBInet program 
limited Block 1 deployments to the Tucson and Ajo stations in the 
Tucson Sector, but did not affect the current SBInet Block 1 
capability, which was developed based on updated requirements from the 
Border Patrol. The Block 1 capability consists of 15 sensor towers 
(with day/night cameras and radar) and 10 communication towers, which 
transmit surveillance signals to the Common Operating Pictures (COP) at 
station command centers. This capability remains deployed and 
operational in Arizona, as part of the Border Patrol Tucson Sector's 
overall technology portfolio. According to contractor and Border Patrol 
officials, there were several original SBInet concepts that were not 
included in the Block 1 capability due to early design/cost trade-offs 
and Border Patrol agent feedback that they did not need them to perform 
their mission. Also, certain elements proved technically difficult and 
costly to include in the Block 1 capability. For example, the concepts 
to integrate transmissions from RVSS and MSS units into the COP, 
transmitting COP images into agents' laptops in their vehicles and 
tracking Border Patrol agent deployments on the geographic display were 
not included.
OTIA and Border Patrol Consider Current SBInet Capability Useful
    OTIA and Border Patrol officials told us that the SBInet program's 
Block 1 capability has been useful since being deployed in February 
2010 at the Tucson station and August 2010 at the Ajo station. For 
example, a shift commander at the Tucson station described the 
capability as considerably better than the technology that was 
available at the sector prior to the SBInet deployment. Further, 
according to COP operators in Tucson, the current SBInet sensor package 
is responsive to key mission requirements by giving them the capability 
to achieve persistent wide-area surveillance and situational awareness.
    Officials at Border Patrol headquarters stated that the Block 1 
capability gave them a capability they did not have before. These 
officials also stated that, most importantly, the Block 1 capability 
helped them achieve persistent surveillance and situational awareness 
to enable an appropriate response to border intrusions and choose the 
location of interdiction, which they described as a tactical advantage. 
They also noted that the height of the towers allows for additional 
surveillance into terrain and brush thereby allowing the Border Patrol 
to shift personnel to gap areas where surveillance does not exist.
    Other examples of system usefulness offered by Border Patrol 
officials included a centralized point of data integration (through the 
COP), increased probability of arrest upon detection (by controlling 
the point of interdiction by means of camera and radar), improved agent 
safety when responding to potential threats, verification of whether a 
ground-sensor indicated a threat or not, efficiency and effectiveness 
in directing agent responses, and a tiered deployment of technology. 
For example, at the Ajo Station, a Border Patrol official explained 
that tiered deployment included mobile technology units that are 
positioned at the border line, and Block 1 sensor towers that are 
deployed off the line where they can monitor intruders who might have 
eluded interdiction at the border.
    The Secretary's January 2011 announcement also stated that the 
SBInet capability had generated some advances in technology that had 
improved Border Patrol agents' ability to detect, identify, track, 
deter, and respond to threats along the border. It further stated that 
the new border technology deployment plan would also include, where 
deemed appropriate by the Border Patrol, elements of the now-ended 
SBInet program that have proven successful.
    On the basis of limited data, the operational availability of 
deployed SBInet components has been consistent with the relevant 
requirement that expects SBInet to be operationally available 85 
percent of the time. According to prime contractor operations and 
maintenance statistics for a 1-week period in January 2011, SBInet in 
the Tucson and Ajo Stations was operational over 96 percent of the 
time. According to the contractor's logistics manager who oversees the 
operation and maintenance of SBInet, since the deployment is relatively 
recent, a full year's worth of data would be needed to make conclusive 
determinations about long-term operational reliability and identify 
areas of persistent problems. The times that SBInet was not available 
were due primarily to camera malfunctions and power failures.
    According to Border Patrol and prime contractor officials, the 
SBInet Block 1 capability is receiving new features from the contractor 
in response to on-going user input and feedback. These features include 
adding an ``eye-safe'' laser target illuminator (the eye-safe feature 
minimizes the potential for injury to a person exposed to the laser), 
adding a ``standby'' mode to the radar (wherein scanning is suspended 
until needed), and integrating the next-generation unattended ground 
sensors \6\ into the COP. However, this applies only to new sensors 
intended for Block 1--the Border Patrol has not selected a vendor for 
next-generation sensors for elsewhere along the border and outside of 
SBInet.
---------------------------------------------------------------------------
    \6\ Unattended ground sensors are sensors buried in the ground and 
are intended to detect motion and transmit a signal to a central 
monitoring location.
---------------------------------------------------------------------------
    The usefulness of SBInet's Block 1 capability notwithstanding, OTIA 
and Border Patrol officials told us that it has certain shortcomings. 
These shortcomings include not having the mobility to respond to shifts 
in risk, facing terrain coverage (line-of-sight) gaps, some of which 
are mitigated through other technologies, and performing poorly in 
adverse weather. Further, according to OTIA, the SBInet capability as 
configured by the prime contractor is a proprietary and not an open 
architecture. Thus, it is unable to incorporate, for example, next-
generation radar and cameras without significant integration work and 
cost.
    In addition, the SBInet capability has been costly to deploy and 
maintain. Specifically, the total task-order cost for the Block 1 
deployment in Arizona was about $164 million. The operations and 
maintenance costs for the deployment are estimated to be up to about 
$1.5 million per month, or about $18 million per year.
alternative (southwest) border technology is slated for deployment, but 
 cost- and operational effectiveness and suitability of the integrated 
                  fixed tower system are not yet clear
    DHS is implementing a new approach for acquiring and deploying 
border security technology called ``Alternative (Southwest) Border 
Technology'' to replace the SBInet program. As part of this approach 
DHS is to deploy a mix of technologies, including RVSS, MSS, and hand-
held equipment for use by Border Patrol agents. It also is to include a 
new Integrated Fixed Tower system that is slated for deployment along 
the border where the Border Patrol deems it appropriate, beginning with 
five high-risk areas in Arizona at an estimated cost of $570 million. 
While other elements of the plan may be deployed sooner, the deployment 
schedule for the Integrated Fixed Towers envisioned by OTIA and the 
Border Patrol is planned to begin in 2013, depending on funding 
availability. This plan suggests that OTIA and the Border Patrol have 
determined that the Integrated Fixed Tower system is a cost-effective 
solution in certain locations. However, due to the questions we have 
about how the Analysis of Alternatives (AOA) \7\ analyses and 
conclusions were factored into planning and budget decisions, the basis 
for DHS's technology deployment plan is not yet clear. Further, the 
results of independent analyses were not complete at the time of the 
Secretary's decision to end the SBInet program, thus any results on 
SBInet's operational effectiveness could not inform the decisions to 
proceed with a possibly similar Integrated Fixed Tower system.
---------------------------------------------------------------------------
    \7\ The AOA process is a key first step in the acquisition process 
intended to assess the operational effectiveness, costs and risks of 
alternative system solutions for addressing a validated mission need.
---------------------------------------------------------------------------
DHS Implementing Broader Border-Security Technology Approach to Include 
        Deploying a New Integrated Fixed Tower System
    According to the Border Patrol, its operational assessment for 
Arizona calls for deploying Integrated Fixed Tower systems to five 
high-threat areas in the State, beginning with the Nogales, Douglas, 
and Casa Grande Stations as part of this approach. These deployments 
will include 52 sensor towers, which is less than the 91 sensor towers 
envisioned under the original SBInet deployment plan. Border Patrol 
officials explained that they reviewed the contractor's original 
analysis of where to put the towers and determined that other 
solutions, such as RVSSs and MSSs, were more appropriate due to terrain 
and other factors such as population density.
    According to OTIA and Border Patrol officials, depending on the 
availability of funding, the deployments of the Integrated Fixed Tower 
system component of the Arizona technology plan are expected to begin 
around March 2013 and be completed by the end of 2015 (or possibly 
early 2016), with other sector deployments sequentially following the 
Arizona sector. OTIA estimates that the entire Integrated Fixed Tower 
system acquisition for Arizona would cost about $570 million, including 
funding for design and development, equipment procurement, production 
and deployment, systems engineering and program management, and a 
National operations center. In this regard, the President's fiscal year 
2012 DHS budget request for BSFIT calls for $242 million to fund the 
first three Integrated Fixed Tower system deployments for Arizona, 
which include 36 sensor towers.
    Border Patrol officials told us that the existing SBInet capability 
and the requested Integrated Fixed Tower systems are intended to form 
the ``baseline or backbone'' of its evolving technology portfolio, 
where appropriate in high-risk areas in Arizona, with some exceptions. 
For example, in the urban areas of the Douglas and Naco Stations, RVSS 
units would likely be considered the backbone because they are better 
suited for populated areas where SBInet's radar capability is not as 
effective. A Border Patrol official said that Integrated Fixed Tower 
systems could be an important technology component in additional areas 
along the Southwest border, but that the agency had not yet made those 
determinations, pending the outcome of forthcoming operational 
assessments.
DHS Has Initiated Actions to Acquire an Integrated Fixed Tower System 
        Capability
    In one of its first actions following the Secretary of Homeland 
Security's announcement to end SBInet, DHS issued a Request for 
Information (RFI) in January 2011 to industry regarding the commercial 
availability of surveillance systems based on the Integrated Fixed 
Tower system concept, consistent with its stated intent to acquire 
future border technologies in its new plan through full and open 
competitions. OTIA and Border Patrol officials explained that the RFI 
would engender competition and better options for the Government, in 
terms of finding out about state-of-the-art industry capabilities and 
obtaining feedback on requirements to help refine them. However, they 
expect similar benefits in terms of capability, performance, and cost 
that such competition would yield, as compared to the SBInet Block 1 
capability. For example, OTIA and Border Patrol officials acknowledged 
that the surveillance system sought by the RFI is essentially the same 
as the one deployed in Block 1 in terms of expected capability and 
performance in meeting operational and effectiveness requirements.
    In February 2011, DHS conducted an ``Industry Day'' to provide 
potential vendors with a better understanding of Border Patrol's 
technology needs on the Southwest border and collect information about 
potential capabilities. During the session, DHS provided information on 
potential procurements for Integrated Fixed Tower systems and a range 
of other surveillance technology, such as RVSS and unattended ground 
sensors.
    Following its information-collection activities, should DHS decide 
to move forward with requests for proposal for various types of 
technology, including the Integrated Fixed Tower system, these actions 
should be timed in such a way as to make maximum use of the results 
from the cost-effectiveness analyses discussed below. While the initial 
deployment actions will be in Arizona, it is envisioned that the 
contracts could be used to deploy technology anywhere on the Southwest 
border. However, to accomplish this, DHS will need to ensure that the 
requirements specified in the request for proposal are sufficient for 
deployment not just in Arizona but throughout the border.
Use of Cost-Effectiveness Analysis for the Integrated Fixed Tower 
        System Raises Questions
    According to OTIA and Border Patrol officials, the Secretary's 
decision on the future of SBInet and the Integrated Fixed Tower system 
was informed by an AOA that analyzed the cost-effectiveness of four 
options-mobile (e.g., MSS), fixed (Integrated Fixed Towers), agent 
(e.g., hand-held equipment), and aviation (Unmanned Aerial Vehicles). 
On the basis of our review of available information about the AOA to 
date, there are several areas that raise questions about how the AOA 
results were used to inform Border Patrol judgments about moving 
forward with technology deployments, including the Integrated Fixed 
Tower system. As we continue our work for the committee, we plan to 
examine each of the following areas in detail to obtain additional 
insights into DHS's decision making regarding the cost-effectiveness of 
a range of border technology options. Specifically,
  <bullet> It is not clear how DHS used the AOA results to determine 
        the appropriate technology plans for Arizona. For instance, the 
        AOA identified uncertainties in costs and effectiveness of the 
        four technology alternatives in each of the four geographic 
        analysis areas, meaning that there was no clear-cut cost-
        effective technology alternative for any of the analysis areas. 
        Yet, the AOA observed that a fixed tower alternative may 
        represent the most effective choice only in certain 
        circumstances.
  <bullet> Because of the need to complete the first phase of the AOA 
        in 6 weeks, the AOA was limited in its scope. For instance, the 
        AOA did not consider the combination of technology approaches 
        in the same geographic area and did not consider technology 
        solutions, such as RVSS units. Urban areas were outside the 
        scope of the AOA. Hence, it is unclear how DHS made decisions 
        for proposed technology deployments in such areas. Further, the 
        first AOA did not examine as an alternative the use of only 
        existing Border Patrol equipment and agents without the 
        addition of any new technology approaches. The AOA should have 
        assessed the technology approaches based on the incremental 
        effectiveness provided above the baseline technology assets in 
        the geographic areas evaluated. According to study officials, 
        the omission of a baseline alternative was corrected in the 
        second AOA and did not change the conclusions of the first AOA.
  <bullet> A more robust AOA could result in conclusions that differ 
        not just in the Border Patrol sectors yet to be evaluated in 
        future AOAs, but also in the Tucson and Yuma sectors considered 
        in the first AOA. While the primary purpose of the second phase 
        of the AOA was to expand the analysis to three additional 
        Border Patrol sectors (San Diego, El Paso, and Rio Grande 
        Valley), being able to conduct the analysis over several months 
        allowed the study team more time to consider additional 
        measures of effectiveness and technology options. DHS plans to 
        conduct another AOA that would cover the remainder of the 
        Southwest border. According to study officials, while the 
        potential for different results existed, the results from the 
        second AOA did not significantly affect the findings from the 
        first AOA.
    Further, we have questions about how the AOA analyses and 
conclusions were factored into planning and budget decisions regarding 
the optimal mix of technology deployments in Arizona. Specifically, 
according to OTIA and Border Patrol officials, the AOA was used to 
develop the Arizona technology deployment plan and related procurement 
plans and to provide cost data to be used for the Border Patrol's 
operational assessment and the fiscal year 2012 budget request for 
Integrated Fixed Tower systems. However, because AOA results were 
somewhat inconclusive, it is not yet clear to us the basis for 
including three of the four alternatives in the manner prescribed in 
the budget request (the Unmanned Aerial Vehicle alternative was not). 
For a program of this importance and cost, the process used to assess 
and select technology needs to be transparent. The uncertainties noted 
above raise questions about the decisions that informed the budget 
formulation process. We have not yet examined the Border Patrol's 
operational assessment to determine how the results of the AOA were 
considered in developing technology deployment planning in Arizona and, 
in turn, the fiscal year 2012 budget request.
Independent Evaluation of Test Results to Determine Operational 
        Effectiveness and Suitability Not Yet Completed
    The Army Test and Evaluation Command (ATEC) was to independently 
test SBInet's Block 1 capability and evaluate the results to determine 
its operational effectiveness and suitability (i.e., the extent to 
which the system fits it its operational environment and is useful to 
Border Patrol to meet the agency's mission). Because the Integrated 
Fixed Tower system could be similar to the sensor towers and COP used 
in SBInet Block 1, the ATEC could inform DHS's decision about moving 
forward with technology deployments. However, the testing and 
evaluation was not complete at the time DHS reached its decision 
regarding the future of SBInet or requested fiscal year 2012 funding to 
deploy the new Integrated Fixed Tower systems, as discussed earlier. An 
initial briefing on the emerging results from the testing was provided 
to DHS on March 2, 2011, with a final report due sometime in April 
2011.
    As our work proceeds, we will further address the questions raised 
about the AOA process, the test and evaluation results, and CBP's 
proposed new acquisition strategy. We will also continue to assess the 
status of the SBInet program in light of the Secretary's decision and 
the actions emanating from this decision.
    Chairwoman Miller, Ranking Member Cuellar, and Members of the 
subcommittee, this completes my prepared statement. I would be happy to 
respond to any questions you may have.

    Mrs. Miller. I thank all the witnesses for their testimony 
today.
    I would just make an observation at the beginning of my 
questioning here. I will turn to myself, recognize myself to 
begin my 5 minutes of questioning. You know, this committee was 
formed, actually, after 9/11, and we have several pictures on 
the walls here of the Trade towers. We all remember that 
horrific day on 9/11.
    Subsequently, the Congress formed this committee in a very 
challenging environment, trying to bring together under an 
umbrella various portions of different agencies, et cetera, et 
cetera. As we think about homeland security, a big part of 
that, of course, would be securing our borders.
    I only mention that is why I always go back to the Northern 
border, because we have similar challenges, but unique 
challenges on both borders. On the Northern border, without 
quantifying it, certainly it is known that we have four to five 
times as many hits on the TIDEs list along the Northern border 
as what we have on the Southern border--so, as I say, a 
different type of challenge.
    But along the Southern border, it seems to me that the 
complexion and the dynamics of what is happening on the 
Southern border is changing and has changed rather 
dramatically, particularly in the last several years, where 
perhaps before it was overwhelmingly illegal immigrants coming 
here for economic opportunity, et cetera. Now you have the 
spillover of the drug cartels.
    To the extent that--I don't need to be alarmist here, but 
certainly it does seem to be almost a war zone situation in 
some areas. I would look for clarification on that.
    But I mentioned the beginning of this committee, because I 
am not sure at what point the Department of Homeland Security 
and this Congress thinks about intermingling some of the 
budgetary requests from the Department of Defense and the 
Department of Homeland Security.
    One of the things that we tried to do after 9/11 was share 
resources in the Operation and Integration Center, and I would 
like to get to that at some point, that we are going to be 
opening next week as a great example of that of all the various 
agencies, all the stakeholders sharing information, analyzing 
data, intel, et cetera, and getting it out into the hands of 
our stakeholders.
    But, you know, we think about border security in theater, 
in Afghanistan, et cetera, and then we have our own border on 
the Southern border that we are having all of these challenges 
with. So I have a question for Major General Salazar.
    I, and I think most people, were very, very enthusiastic 
about the President when he requested the National Guard along 
the border. I have been there. I have seen some of the things 
the Guard is doing, from putting up some of the fence to 
various things that has been happening with our men and women 
and our Guardsmen along the border there.
    I am disappointed that the funding is going to run out in 
June. That is one of the things, I think, this Congress and 
this committee will be looking to think about what we really 
need to do with the National Guard. I am just wondering if you 
could flesh out a bit for us, first of all, the construct of 
the Guardsmen and women who are there.
    I am not quite clear where they are all from, how they 
cycle through, the 2 weeks, 4 weeks, and various States that 
they are coming from. I ask that question in the context do you 
think it would behoove the Federal Government to mission the 
Guard in the various States to have border security as a part 
of their mission, where all States would participate in this 
type of thing?
    A follow on to that question, one of the things, certainly 
in theater, that happens--I will tell you a bullet doesn't know 
if you are inactive duty or you are a Guardsmen. That is so, 
along our border as well, as you seek to be a force multiplier, 
I think, for the proud men and women in Customs and Border 
Patrol.
    Do you think that the Customs and Border Patrol is armed 
properly? Do you think, for instance, a Stryker brigade would 
be advantageous along the Southern border and really utilizing 
various types of armaments that we do use in theater to secure 
that border against these drug cartels?
    I know it is sort of a long question, but I am just trying 
to understand how the Guard is being utilized, how we can most 
effectively utilize the guard as we go forward, and perhaps 
other units of the military.
    Major General Salazar. Chairwoman Miller, I will try to get 
all aspects of your answers there. Just as a point of order, we 
have not been--we, being the Arizona National Guard have not 
been building any fences since Operation Jump Start, which 
ended in 2008.
    Like all these missions that we do in the National Guard, 
we do not dictate the mission sets that we provide. The 
Department of Homeland Security has always prioritized the 
mission sets. For Operation Phalanx and the counter drug 
program, the JCNTF program, neither of those operations have 
any kind of engineer or fence work that is part of their 
mission sets.
    As for the question about how we organize, in Operation 
Phalanx, for example, we received what is called 502(f) Title 
32 funding. Every person that is on the program is on the 
program for an extended period. They are on active duty orders 
serving the National Guard.
    The one disadvantage with the type of funding we received 
for Operation Phalanx, which was the same type of funding we 
received for Operation Jump Start, is that those individuals 
that are serving on Operation Phalanx are not allowed to go to 
drill and perform the weekend drills. So when we have soldiers 
or airmen that volunteer for this mission, they no longer 
participate in their unit of assignment, which is a readiness 
issue.
    The difference between that and JCNTF, because of the type 
of Title 32 Section 112 funding, does authorize those soldiers 
and airmen to continue participating in their unit, maintaining 
their readiness, both individually as well as the unit. So from 
that standpoint, there is a significant difference.
    Having experienced Operation Jump Start, which is where we 
had units rotate through from all over the country, as opposed 
to Operation Phalanx, which is the current mission, where it is 
all being supported by Arizona National Guard personnel, 
financially it is an extremely more expensive operation to be 
rotating units through as opposed to the current mission of 
just using Arizona National Guard organic units.
    Given the size and scope of the mission set, yes, we are 
pretty comfortable being able to field up to 500, 600 Arizona 
National Guard personnel on the border.
    Mrs. Miller. My time has expired, but just so I understand. 
So in Arizona the National Guard that is in Arizona, for 
instance, is only the Arizona National Guard. There are no 
other State National Guardsmen or women there.
    Major General Salazar. Yes, ma'am. That is true. The 560 
personnel that are currently serving on Operation Phalanx are 
all full-time National Guard, and they are all Arizona National 
Guardsmen.
    Mrs. Miller. Do you know if that is true in Texas as well? 
It would be just the Texas National Guard?
    Major General Salazar. For Operation Phalanx, I do know 
that Texas, New Mexico, Arizona, California are all supporting 
that mission with organic National Guardsmen in that specific 
State. Operation Jump Start was significantly larger, and we 
were the one State that required outside support from other 
States.
    Mrs. Miller. Well, I appreciate that answer, because it 
does seem to me that other States should be assisting with 
this, because if you take that amount--I don't know what 
percentage that is--out of the Guards in the respective States, 
but that would definitely be a readiness issue for that 
particular State, where you have got sort of the big burden of 
the border protection, where you are protecting the border for 
the entire country.
    That may be something that this committee and this Congress 
wants to look at. So I appreciate that.
    I am over my time. We think we will have a second round of 
questions, but at this time I turn to my Ranking Member, Mr. 
Cuellar.
    Mr. Cuellar. Thank you very much, Madam Chairwoman.
    In August 2010 we passed H.R. 6080, the 2010 emergency 
border security supplemental appropriation, which provided $600 
million to strengthen border security and to help reduce 
violence along the Southwest border. This funding allowed for 
the hiring of 1,000 new Border Patrol agents to be assigned to 
the Southwest border.
    In order for us to provide our legislative oversight and to 
ensure that we appropriately are allocating resources to the 
areas that need the most assistance, I have asked CBP where 
these new border patrol agents would be assigned.
    I am going to ask if they can put the chart up on the 
screen.
    Members, I am going to give you a handout in a few minutes 
also that shows what is up there on the screen. Tucson, which 
is already the largest CBP sector with 3,361 agents in fiscal 
year 2010, will receive 500 new agents. El Paso, which is the 
second largest sector with 2,718 pages, will receive 187 new 
agents, which is the second largest allocation. The San Diego 
area, which is the third largest sector with 2,588 agents and 
the Rio Grande Valley, which is the fourth largest with 2,418, 
each will receive 150 new agents.
    The remaining sectors, Laredo, Del Rio, El Centro, Yuma, 
Marfa, the fifth, sixth, seventh, eighth and ninth sector, 
respectively, in the number of agents assigned, none of these 
sectors will receive any of the new Border Patrols out of this 
plus-up.
    I have also asked for statistics regarding the number of 
agents already assigned to each sector prior to this plus-up 
and the number of apprehensions that each sector made in the 
fiscal year 2010.
    Mr. Fisher, you and I have talked, and when I asked you for 
the factors to be used, you used apprehensions. Then later, 
when I asked you to explain why those numbers were allocated, 
you came up with some other vague threat, risk, other, without 
being able to define those.
    A few minutes ago Mr. Borkowski, you also said that CBP 
uses apprehensions to measure how effective they have been with 
the enforcement of border apprehensions.
    In fact, Mr. Fisher, when I asked you to provide me the 
factors, the only thing you gave me--Members--was 
apprehensions. You all should get a copy of the handouts of 
this one to see what each sector gets in apprehensions.
    CBP provided the statistics for the creation of the graph 
that I have displayed overhead, and I put this graph, which 
lists all the Border Patrol sectors along the Southwest border, 
shows the ratio as to how many undocumented persons were 
apprehended per Border Patrol agent assigned to sectors in 
fiscal year 2010.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Cuellar. I have listed the sectors in order, starting 
with the highest apprehension rates to the lowest. For example, 
Tucson, Members, is the one at the left side, which is the 
apprehensions is the one in the blue. The red is the additional 
numbers that each sector is supposed to be getting. Those are 
done by 10s. Then the lowest is El Paso, which has the lowest 
amount of apprehensions, but gets the second largest number of 
officers.
    So I have listed the sectors in order, starting with the 
highest apprehension rates to the lowest. For example, Tucson, 
as I mentioned, has a ratio of 62.3 apprehensions per Border 
Patrol agent. El Paso has the lowest ratio of 4.4 apprehensions 
per Border Patrol in fiscal year 2010. El Centro, which has the 
second highest apprehension rate at 26.8, yet this sector is 
not receiving any new Border Patrol agents.
    Chief Fisher, I want to give you the benefit of the doubt. 
I don't think these allocations are political, but to an 
outside observer, it might sure look that way. It would look as 
the amount allocated for El Centro was moved to El Paso. In 
fact, if you look at the red, I think that red should be where 
the second largest is. Maybe you made a mistake on that, but it 
looks like that allocation is wrong.
    I don't know--I don't see Ms. Sanchez here, but I am sure 
that her or Dan Lungren from California and any other folks 
would question as to why the second-highest apprehension rate 
per agent is not receiving any agents, while the lowest sector 
that has the lowest rate of apprehension is getting the second 
allocation of new agents of 187 under the supplemental. Can you 
explain that?
    Mr. Fisher. Congressman, I would be happy to. As a matter 
of fact, I want to make sure that I am clear, because I am not 
explaining myself clearly as it relates to staffing.
    It is true that apprehensions are a factor that we take 
into consideration for a number of things, not the least of 
which is staffing levels. It is inaccurate to suggest that it 
is the only thing that we take into consideration, for 
instance, the supplemental that you had mentioned.
    Of those 1,000 Border Patrol agents for the supplemental, 
500 of those agents will be going to the Tucson area. That is 
permanent full-time equivalents. The other 500 will be 
dispersed among four corridors along the Southwest border to 
make up what is called the mobile response teams.
    Now, although they are assigned to a sector, because we 
have to assign them to those areas, the corridor concept in 
those four locations are consistent with which we have 
identified areas along the Southwest border to be able to 
manage risk both in terms of the threat, which is the intent 
and capability of all those seeking to do harm into this 
country, and to identify threat along the Southern border in 
particular in terms of volume of activity.
    We also take into consideration vulnerability, which makes 
up that threat picture. So it is true that----
    Mr. Cuellar. Mr. Fisher, I am sorry, but let me interrupt.
    Mr. Fisher. Please.
    Mr. Cuellar. Apprehension, No. 1. Give me in a concrete 
manner what the second factor is.
    Mr. Fisher. The second factor would be effectiveness, which 
by our definition is the proportion of apprehensions subsequent 
to a detected entry. In other words, of those individuals that 
we detect coming between the ports of entry, we want to 
proportionately increase the amount of arrests that we make 
along the Southwest border. That is one additional----
    Mr. Cuellar. Third factor?
    Mr. Fisher. The third factor would be inteligence in terms 
of what is happening along our border both respect to any 
potential violence within that corridor, transnational criminal 
organizations operating in that area, and any associated--to 
give you a third and a fourth, any associated crimes related to 
smuggling or other crimes within the border communities that 
are taking place along the Southwest border.
    Mr. Cuellar. The last time, I think--I don't know if it was 
Mr. Duncan or somebody had asked you the question about the 
definition, operational definition, and you were using 
something different from what we had put in 2006. Part of that 
definition talks about enforcing the border, that is, you know, 
the intrusions into the United States, which means 
apprehensions.
    So are you coming up with other factors beyond that 
definition that we put in statute in 2006?
    Mr. Fisher. No, sir, not at all. Matter of fact, I believe 
Congressman Duncan was referring to the 2006 Fence Act, whereby 
operational control was defined by the prevention of all 
illegal activity. I am just suggesting the manner in which we 
do that is not inconsistent. It is a little bit more 
sophisticated in terms of staffing models.
    Mr. Cuellar. Well, I don't know what you mean by more 
sophisticated, but given the benefit of doubt so we will 
understand what you mean, again, apprehensions--and I just want 
to have a sense, but I met with you, I have talked to your 
staff, and we still have no idea what you are talking about, 
with all due respect.
    Apprehensions is one. Mr. Borkowski said that is the main 
measure to look at stopping people about coming into the United 
States What is the other one--threat?
    Mr. Fisher. Well, Congressman, first, I would like to 
clarify it wasn't my intent to be either condescending or in 
using the word ``sophistication'' to allude to the fact that 
this particular committee wouldn't understand it. I was 
suggesting in terms of how we do our staffing models, we have 
matured the way that we look at it, and we look at things 
just----
    Mr. Cuellar. Mr. Fisher, let me ask you, why don't you put 
that in writing and send that to us in a very succinct way? 
Because this is the second time I have sat down with you, and I 
still don't understand. I have been doing this probably not as 
long as you, but I think I have a working understanding. Could 
you provide that to the committee?
    If I can just ask one question, the emergency supplemental 
was signed into law in August 2010. The funds were available 
immediately. How many Border Patrol agents have you hired under 
the emergency funding? Because in talking to the homeland 
appropriators, they said that you still haven't given them 
answer as to how many you have hired. I understand it takes, 
what, 18 months. Where are you exactly on hiring under that 
emergency process?
    Mr. Fisher. Congressman, I will have to get back 
specifically for the question----
    Mr. Cuellar. Whoa, whoa, whoa. You don't understand how 
many people--you as the chief don't understand how many people 
you have hired at this time?
    Mr. Fisher. No, I can--we have over 20,000 Border Patrol 
agents right now.
    Mr. Cuellar. No, no, no. Under the supplemental bill that 
we passed last August in 2010, you were supposed to hire 1,000, 
because there was an emergency. The funds were available 
immediately. How many Border Patrol agents have you hired under 
the emergency funding?
    Mr. Fisher. I don't know specifically under that specific 
appropriations, but we have hired----
    Mr. Cuellar. Mr. Chief Fisher, you are saying that as the 
chief of the Border Patrol, an emergency bill that got passed 
in August 2010, you are telling me that you don't know how many 
people you have hired under that emergency? It didn't happen 
last month. It happened August 2010.
    Mr. Fisher. Under the specific appropriations, because 
those numbers would be different depending upon when we started 
hiring in October, both in terms of backfilling the attrition 
positions and onwards to our goal this fiscal year of hiring 
21,370, I don't know specifically against the emergency 
appropriations how much of that total that we have done thus 
far, but I would be able to follow up and get you that answer, 
sir.
    Mr. Cuellar. Yes, first question, I still don't understand 
you. Second question, I still don't understand your question.
    Madam Chairwoman, I know you have been very indulgent.
    But I would like to ask you to give us that information 
also as to how many people under the emergency bill that we 
passed in August 2010, 1,000 people, and they were supposed to 
be so the National Guard can come in. The National Guard will 
be stepping out, and Border Patrol is supposed to be coming in.
    I am surprised that you don't know how many people you have 
hired under that, how many have been interviewed, background 
investigations, how many have been sent to the BPP Academy. I 
would ask you to please submit that in writing to the 
committee.
    Thank you, Madam Chairwoman.
    Mrs. Miller. At this time I would also look for unanimous 
consent to have Mr. Green join our questioning of the witnesses 
today. Without objection, that will be so ordered.
    I would just comment to Mr. Green you have been to several 
of our committee hearings, and we would invite--I think there 
is a vacancy. We would certainly invite you to join us, because 
you are a very, very active participant and very interested in 
these issues, and we are appreciative of that.
    Mr. Green. Thank you, Madam Chairwoman. I gratefully accept 
your comments. Thank you.
    Mrs. Miller. At this time the Chairwoman would recognize 
Mr. McCaul of Texas.
    Mr. McCaul. Thank you, Madam Chairwoman.
    Chief Fisher, I would also be interested in your answer to 
Ranking Member Cuellar's question, if you could forward that to 
my office as well that answer.
    Mr. Fisher. I will, sir.
    Mr. McCaul. I appreciate that.
    Mr. Borkowski, it is good to see you again. I want to 
allude back to, I guess, it was about a year ago. You and I and 
Congressman Cuellar were down in Laredo on the Mexican border 
and ended up at midnight, like something out of a movie, with 
this equipment from the Department of Defense. I think you and 
I and Congressman Cuellar were very impressed with this 
technology.
    Can you give me an update on the deployment of this 
technology and what your plans are to use it?
    Mr. Borkowski. Yes, thank you. I also recall that session.
    In fact, if you were to look at the new Arizona technology 
plan in total, it includes elements called agent portable 
surveillance systems, APSSs, which are tripod-mounted, long-
range, infrared sensors. Those are among the things that we 
looked at there.
    So we are in fact in this plan intending to procure those 
as part of the Arizona deployment. We are in fact procuring 
them through an Army vehicle. So, yes, we did take advantage of 
what we learned from that. We did incorporate it into the 
operational assessment the Border Patrol did, and we do intend 
to procure those systems.
    Mr. McCaul. I am very glad to hear that. I look forward to 
its deployment across the entire Southwest border, including my 
State of Texas. We have 1,200 miles with Mexico.
    Mr. Stana, you mentioned that 755 million in Arizona alone 
for technology. What does that leave for the rest of the 
Southwest border?
    Mr. Stana. Well, I guess that depends on what the Congress 
appropriates----
    Mr. McCaul. Yes.
    Mr. Stana [continuing]. But that is what this expenditure 
is envisioned in just Arizona alone.
    Mr. McCaul. Okay. You know, again, Congressman Cuellar 
alluded to the politics of the situation. It just seems like 
Arizona is getting all the attention, and Texas is not. I just 
want to impress upon you that--and I understand the 
apprehensions are very high in the Tucson sector, but we do 
have a large, you know, 1,200 miles that we share. I think, you 
know, our State should be given that attention as well.
    Mr. Stana, you mentioned that this would not be completed, 
the technology piece on the border would not be completed until 
2021 or as long as 2026. Is that correct?
    Mr. Stana. That is our understanding. They are starting 
with Arizona, and they will go to neighboring sectors, but by 
the time this sequential process is finished with the AOAs and 
the judgments made by the Border Patrol and the fielding of the 
technology, it would be 2021 to 2026 before the last Southwest 
border sector would be--then to the Northern border.
    Mr. McCaul. Okay. That is a long time, and you are talking 
10 to 15 years. It took us a decade to put a man on the moon, 
and yet we are talking about camera surveillance, you know, 
that kind of stuff, that technology that, quite honestly, the 
Department of Defense has already manufactured through R&D at 
taxpayer expense.
    I don't understand why this takes so long. You have a 
crisis going on down there. Everyone knows it. We know how 
dangerous it is in Mexico, and we know how dangerous it is at 
the border. Why can't we ramp up this process? Why can't we 
expedite it? What can we in the Congress do to send that 
message to the administration that we need to do this faster?
    Mr. Borkowski.
    Mr. Borkowski. Yes, sir. Certainly, we could buy more, and 
we could put them wherever we need to. In fact, the plan, one 
of the differences in the new plan is that it actually has the 
flexibility to adapt as the threat evolves. So it is very much 
focused on Arizona, because, as you noted, that is where we 
have over 200,000 apprehensions compared to the rest of the 
border.
    We do expect things to evolve, and we actually have funding 
in the budget in the President's request for what we call 
emergent requirements. Among other things, that is to deal with 
what we see as a result of tightening up Arizona.
    In addition, the systems we are buying are systems that the 
military has provided. There are a whole set of these things. 
The integrated fixed towers--there are such systems already 
existing by the military. So we can buy them. The question is: 
Where do we put the first ones and why do we put them there?
    However, we will that allow us to respond. If there is a 
movement of traffic somewhere else that requires us to deploy 
somewhere else, we can shift our plan to adapt to that----
    Mr. McCaul. I appreciate that. I hope we can do it more 
expeditiously. If I have to go home and tell my constituents it 
is not going to be until 2026 that this border is secure, they 
are not going to accept that message. I think they are right in 
not accepting that.
    Last, on the question of the National Guard, General, your 
deployment will end in June is my understanding. What is the 
plan?
    Major General Salazar. Congressman, we are not those that 
create the plans. Basically, unless there is additional 
funding, the mission is going to end. This is the Operation 
Phalanx mission. The counter drug program, that is still 
continuing. We have about 140 personnel there continuing doing 
that mission, which we have been doing for over 20 years in 
support of law enforcement.
    Mr. McCaul. So it is over. The National Guard will be 
removed from the border as of June.
    Major General Salazar. For Operation Phalanx, yes, sir.
    Mr. McCaul. I was always concerned that, you know, your 
hands are tied. You are in a support role, not operational down 
there to begin with, and I understand Posse Comitatus and the 
concerns there, but, you know, they weren't doing what they are 
trained to do, essentially.
    I talked to my Governor about it. He said, you know, 
eventually, the Guard's backing is a bit of a Band-Aid. We need 
a permanent force down there. We talk about technology. You 
need the response piece as well, the manpower to respond.
    Mr. Borkowski, what are we going to do about the transition 
as the Guard deploys out of the region?
    Mr. Borkowski. Well, I think I would offer that to the 
Chief. I could give you my perspective, but the chief is the 
operational expert there. Would that be something that----
    Mr. McCaul. Chief, do you have a response?
    Mr. Fisher. Yes, Congressman. As a matter fact, along Texas 
and across the other three States as well, the majority of the 
National Guard are providing what is called entry 
identification teams. It is a lookout post, observation post, 
where National Guardsmen and women are put up on a high point 
with optics, daytime/nighttime capabilities, to inform the 
Border Patrol agents where the activity is.
    Those missions and that requirement will remain, and Border 
Patrol agents will be doing those, if those EIT sites are still 
required.
    Mr. McCaul. Well, it seems like there is going to be a big 
gap missing as the Guard pulls out, and I think I would like to 
see a very thoughtful plan as to how to replace them.
    So with that, I yield back, Madam Chairwoman.
    Mrs. Miller. The Chairwoman now recognizes the gentleman 
from Michigan, Mr. Clarke.
    Mr. Clarke. Thank you, Chairwoman Miller.
    You know, even though the Southern border has a lot more 
documented illegal crossings than the Northern border, Chairman 
Miller, properly cited, the Northern border faces unique 
challenges.
    I have got two questions. One is essentially how do we 
increase Northern border control? Secondly, what are the 
tailored mix of technologies, the likely existing technologies 
that we could deploy to better secure that border?
    But just before I go and pose the questions, I just want to 
note that the Detroit border sector contains 10 percent of the 
Nation's border miles, approximately 863 of those miles, yet 
only four of them are under operational control, at least by 
CBP.
    Ranking Member Cuellar raised the issue that for me still 
begs the question on what is operational control, especially as 
a new Member, since Congress 2006 stated that it means 
preventing all unlawful entries, but yet in the National border 
patrol strategy, I believe at least in 2004, indicated that the 
objective was to stop those penetrations in the high-priority 
areas.
    But even still, the GAO back in 2010 indicated that when it 
interviewed certain border sector offices, including Detroit, 
which is the area that I represent, those offices indicated 
that additional resources were needed to better secure the 
border.
    This question is to anybody with CBP: What are the steps 
that you are currently taking to address those identified 
needs, either through more effective partnerships or through 
additional resources? Then I have got a question regarding 
technology after that.
    Mr. Fisher. Congressman, I will take that answer to that 
question, if that is okay. You are correct. As a matter of 
fact, when I proudly served 2 years in Detroit, a huge 
difference in terms of the threat and vulnerability that I was 
experienced on the Southern border. That 860 miles that you 
talk about is water border, so it provides a very unique 
challenge to how we approach that particular threat.
    What is interesting also is I don't believe that in order 
to minimize the risk in an area like the Detroit or State of 
Michigan, that we would want to overwhelm with Border Patrol 
agents alone. Certainly, the infrastructure and technology or 
the infrastructure and fence, for instance, wouldn't be 
applicable.
    Then so the question is to what extent do we need 
technology, if in fact the threat as defined was the same on 
the Southern border, which I don't believe it is. For instance, 
there is, I don't think, enough camera poles that we would be 
able to put a long even more so than the 860 miles, if you take 
into consideration all the inlets, all the rivers and those 
crossing points.
    So the approach for Detroit in particular, and certainly 
along the Northern border, and as we start our sustainment 
strategy along the Southern border in the out years, is really 
going to be predicated on three things. It is going to be 
information and inteligence, which is really going to be a key 
indicator on what that threat is and how we can minimize the 
risk.
    The second thing is going to be the integration. As you 
aptly noted, operational integration, our ability to work with 
a joint terrorism task force, the border enforcement security 
task forces for ICE, for instance, working with our State and 
local partners as force multipliers, that has in our history 
and will continue in the future to be a key indicator on our 
ability to not only know what is coming at us, but certainly to 
build the operational plans as a law enforcement force, not 
just the Border Patrol, but within the community against those 
particular threats.
    Mr. Clarke. Thank you, Chief.
    Just to pick up on that, and this is for anybody in CBP, 
the chief outlined the differences with the Northern border. 
Much of the border is right in the middle of a body of water. 
Other areas are in the middle of forest.
    What are the tailored mix of technologies that you would 
use to better secure that area, just using your term of art, 
Assistant Commissioner Borkowski? But this is to anyone that 
could address that.
    Mr. Borkowski. Well, let me start, but I would also like to 
suggest we should hear from General Kostelnik, because his air 
and marine is a big part of the technology solution here.
    But there are a number of technologies along rivers and 
such. We do have radars, we do have cameras, and we have 
started to deploy some of those. Within wooded areas that is a 
little trickier, because radars and cameras don't help you. But 
there are a number of sensors that we can use to detect 
activity.
    So for us the focus is on recognizing whether or not a 
vulnerability is being exploited so we can respond to that 
knowledge. It is not dealing with hundreds of thousands of 
people trying to come across the border, which is a significant 
difference. It is identifying where there is an issue so that 
the resources we have can be properly focused on it. That is 
how we would use technology, and we are investigating those 
kinds of systems.
    With that, I think it is probably important for General 
Kostelnik to talk about how we use the air and marine assets.
    General Kostelnik. Well, I could just add that over the 
last 5 years, while there has been a lot of visible focus on 
the Southwest border, in the long lead areas that are very 
difficult to acquire high-end equipment, aviation in particular 
and maritime to a lesser extent, the agency actually has been 
investing heavily in the Northern border.
    Over the last 6 years we stood up five new air branches, 
Detroit obviously one of the big ones up there, but air 
branches all across the Northern border to lay in aircraft and 
aviation support to support our officers and agents on the 
ground.
    In the maritime, this committee has actually been part of 
the plus-up in the maritime environment, and we have added 
significant number of marine branches not only in the Great 
Lakes, but in other areas across the Northern tier and 
accordingly, because we have actually a faster lead time on 
acquisitions, have fielded the very capable new generation of 
SAFE boats.
    You probably have seen these. Both we and the U.S. Coast 
Guard operate these things. They are sealed aluminum hull 
vessels. We operate the 33- and 38-foot boats on the Great 
Lakes. These are boats that are capable of 60 miles on the 
water, three manned armed crew. We are carrying not only Border 
Patrol agents on these boats as crew, but also office of field 
operation customs type doing port inspections.
    Of course, with the UAVs it is a very more problematic 
approach with the issues we have with COAs and problems with 
civilian aviation traffic, but we have made a tremendous amount 
of progress in the UAV program in the Northern tier as well, 
having fully deployed an operational two aircraft in North 
Dakota and having recently this past year, since we last 
briefed the committee, acquired additional COA airspace.
    We can now fly from Minnesota all the way across the 
Northern tier to the west to Spokane, Washington, and, of 
course, 2 years ago developed and do have the COAs for 
operational work on the eastern side of the Great Lakes, having 
flown and deployed to Fort Drum, partnered with the 10th 
Mountain Ranger Division there, partnered with the Air National 
Guard in Syracuse.
    We have flown the St. Lawrence Seaway. We have flown Lake 
Ontario. While we do not have dedicated UAVs or COAs active for 
the Great Lakes proper, including Detroit, we do have as a 
matter of record, you know, emergency COAs available to us from 
the FAA such that should there be a National high-end 
contingency event anywhere along the Northern border, we could 
get the necessary COAs from the FAA for a National security 
event in 1 day.
    We do have the asset not only from the Northern tier asset, 
but the ability to distribute a system to fly and operate 
aircraft from any of our four operational launch and recovery 
sites.
    So while we continue to explore with new technology like 
the OIC we are going to open next week and other types of 
activities that A.C. Borkowski has talked about in terms of the 
land investment, integrating these airborne assets, which are 
very difficult to acquire, take time to get, a lot of that 
infrastructure is in place.
    Efforts like the OIC, through much quicker development 
opportunities through OIT software and computers, is starting 
to tie those aircraft, those boats not only to the COPs with 
the command and control infrastructures, but also through 
developments that we are applying in the Southwest border that 
equally apply to bringing the agents into that connectivity.
    Today we can see live streaming video from our Predators to 
handheld devices that would fit in your hand--probably your 
BlackBerry, you know, in the next few weeks. I mean, that is 
how far technology has come.
    So I would ask you just take a fair and balanced view that 
we have not lost our focus on the Northern border. We have been 
working it behind the scenes for a long period of time, and 
much of the technological investments in particular that we 
invest in the Southwest border we can quickly apply to the 
Northern border, and that is always part of the plan.
    Mrs. Miller. Thank you very much.
    The Chairwoman at this time recognizes Mr. Quayle, of 
Arizona.
    Mr. Quayle. Thank you, Madam Chairwoman.
    Chief Fisher, I have a question. It is starting in June we 
are going to have a drawdown of the 1,200 National Guard troops 
from the Southwest border in Arizona. That is a little over 
530. At the same time we recently canceled SBInet, so a lot of 
the technological force multipliers that would have been in 
place--hopefully, would have been in place--are now gone, and 
they won't be in place till probably 2013, I think, at the 
earliest, and maybe not until 2015 in Arizona, which is my home 
State.
    My only concern is what is the Border Patrol going to do to 
kind of bridge that gap between the drawdown of the National 
Guard troops and the implementation of the force multiplier via 
technology, which we don't know when that is going to be 
actually implemented?
    Mr. Fisher. Yes, Congressman. I can tell you from the time 
that we stood up the National Guard deployments in Arizona and 
across the Southwest border, but in particular Arizona, to the 
drawdown, which will be complete by June time period, we have 
increased both in terms of permanent Border Patrol agents and 
detailed Border Patrol agents into Arizona.
    So the capacity that we have built in the State of Arizona 
in terms of Border Patrol agents capability and for technology 
is at or exceeding what the Guard has right now in terms of 
those resources. So I don't necessarily think there is going to 
be a huge gap.
    In other words those entry identification teams will not go 
unguarded, if you will. Border Patrol agents, if the operation 
still requires it, will be manning those. It just won't be the 
National Guard.
    Mr. Quayle. Okay. Thank you.
    Now, Mr. Stana, I saw in your testimony you discussed how 
DHS has ended the SBInet program, but not its contracts or key 
technology capabilities. What has DHS actually ended?
    Mr. Stana. Well, what it has ended is the concept of moving 
forward with the SBInet capability, which is a camera day and 
night, radar on top of a tower that feeds into a COP that has 
the possibility of certain other inputs as the primary vehicle 
for using technology to be the force multiplier you mentioned.
    It now is going with a more tailored approach sector by 
sector, almost station within sector by station, to see which 
kinds of technology is most appropriate for a certain area, a 
certain terrain, a certain threat.
    What our problem is to date is that we haven't seen the 
documents--we hope to see them soon--but we haven't seen the 
documents yet that translate their view of what the 
alternatives are and the cost effectiveness of these 
alternatives into operational assessments and budget and 
planning. That is a black hole for us at this time, so I cannot 
say today that I totally agree with the laydown that they have 
prescribed.
    Mr. Quayle. So you can't even say if there are significant 
differences between the new technology laydown plan and what--
--
    Mr. Stana. Well, there are differences in the mix of 
technologies used, but I think one of the messages I bring to 
you today is that if you think that ending SBInet means you 
won't be seeing towers on the Southwest border with cameras and 
radars on top of them that feeds into a COP somewhere in the 
station house, no, that is probably going to be in the next 
generation. The question is: Is that going to be the main 
technology fielding?
    Mr. Quayle. So do you think it is going to be the same 
technology, just different contractor? Or and figure out----
    Mr. Stana. Well, it could be. I mean, there are only so 
many ways you can configure camera, radar on top of a tower 
with a COP. I know that, for example, the contractor that 
currently does SBInet is likely to compete again or throw its 
hat in the ring again. Whether it is selected again or not is 
hard to say at this time.
    But, yes, I mean, there are only so many of these things 
out there and fielded, and there are only so many to select 
from. In fact, if you look at the RFI, the request for 
information that CBP is putting out. It looks very similar to 
the kinds of documents we saw when SBInet was beginning in 
terms of the desired capabilities.
    Mr. Quayle. Okay. Thank you.
    Major General Salazar, first of all, thank you for your 
service and what you do. I was just wondering have you seen or 
do you have any concerns yourself from the drawdown that will 
occur starting in June? First of all, what is the effect then 
from your standpoint of being able to secure various areas, 
especially in the Tucson sector, with the deployment of the 
National Guard troops? Do you see any negative effect on the 
drawdown coming up starting in June?
    Major General Salazar. Congressman, I am not in the 
position to be able to answer the question on what would be the 
effect. That is really more of a question for law enforcement 
and for one or the other members of the panel here.
    As far as the impact on the National Guard, you know, it 
boils down to a job, to be honest. Many individuals that, you 
know, volunteered to perform this mission are going to be out 
of a job. So those individuals will either go back to their 
civilian employment, if they had it, or they will be continuing 
looking for a job or deploying or doing whatever is needed to 
put food on the table for their families.
    The impact on the National Guard from a readiness 
standpoint, there is none, because we still had the requirement 
for the Federal and State mission. It is more of a personal 
impact on those individuals that no longer will have 
employment, because they are off orders in June.
    Mr. Quayle. Thank you very much.
    Mrs. Miller. The Chairwoman now recognizes the gentleman 
from New York, Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chairwoman.
    In recent years Congress has provided very significant 
increases for Border Patrol agents, border fencing and 
technology projects such as SBInet. The GAO report is quite 
critical that Customs and Border Protection received over $1 
billion for the SBInet program with little to show for it due 
to technology and integration problems.
    Mr. Borkowski, I appreciate very much your emphasis on the 
distinction between the Southwest border and that of the 
Northern border. As part of the Northern border project of 
SBInet, remote video surveillance systems were deployed along 
the Niagara River in the Buffalo sector and in the Detroit 
sector.
    This technology was chosen because of the unique 
operational area, which consists of coastal maritime Lake Erie, 
riverine Niagara River, Irving, Buffalo, and rural 
environments. How effective has this particular system been in 
securing the Northern border against illegal border activity?
    Mr. Borkowski. The feedback, Congressman, that we have 
gotten from the Border Patrol, which would be the one who would 
make the assessment, has been very positive. We now have 
technology in areas where it has not in the past existed.
    Now, there have in the past been RVSS, remote video 
surveillance systems, and those are day and night cameras that 
are remotely controlled on towers. There have been some of 
those in Buffalo. This filled in some gaps in Buffalo.
    We are also using, frankly, these are systems. We have 
about 250 of these deployed along the Southwest border. Of 
course, the environment--I was raised in Buffalo and 
Rochester--it gets much colder there. We had problems with 
lenses freezing over, those kinds of things.
    So part of this was to take a look at how well they 
actually held up in that environment. They do seem to hold up 
very well. They went up actually very quickly, very cost 
effectively, and the feedback that we got back from the Border 
Patrol has been very positive in what that has allowed them to 
do in terms of seeing what is going on.
    I would like to make one point of clarification, if I 
could. When we talk about SBInet and how much money has gone to 
SBInet, we have had trouble with the definition of the term 
``SBInet.'' I don't call what we put up in Buffalo or Detroit 
SBInet. The system we were putting in Arizona is SBInet, and we 
have been kind of loose with terminology in the past.
    It is important, because the $1.5 billion that the GAO 
talks about includes almost a billion for the SBInet in 
Arizona. But the rest of it is for things like the Northern 
border--mobile surveillance systems, tactical communications. 
Just to be clear, we try to make a distinction among those 
technologies.
    Mr. Higgins. Okay.
    And for both Mr. Borkowski and Chief Fisher, the GAO report 
found that only 69 miles of the 4,000-mile border is currently 
considered under effective control. Thirty-eight of those 
effective control miles are in the Buffalo sector.
    Mr. Fisher, in your testimony you emphasized the importance 
of strong partnerships with the Federal, State, local, and 
Tribal agencies, as well as the Canadian government, to protect 
the border and expand inteligence and information sharing.
    I recently visited the Border Enhancement Security Task 
Force, BEST, in Buffalo, where they discussed their role in 
securing the border. Their partnerships have allowed them to 
make 284 arrests, 95 indictments, 44 convictions, and the 
seizure of approximately 7,200 pounds of controlled substances, 
2.3 million in U.S. currency, 49 firearms, 38 vehicles, since 
the inception of the program in March 2008.
    However, the recent GAO report referenced that numerous 
partners have cited challenges relative to undermining the full 
capability of the program. Can you help us understand that a 
little bit better?
    Mr. Fisher. Yes, Congressman, I will try. I mean, one of 
the things when you look at operational control as defined and 
applied and you look at the Northern border, I mean, one of the 
deficits the Northern border chiefs had over the years is 
because predominantly the definitions were predicated on 
technology, they were predicated on fence.
    We realized that in the Northern border in particular, a 
lot of the personnel enhancements and the fence not only were 
not going to go proportionately to the Northern border, but in 
a lot of those areas it didn't make sense to put fence along 
the Northern border. So what we asked the chiefs to do at the 
time is take into consideration the relationships and the 
operational coordination that you are doing.
    What we are doing right now is trying to figure out: How do 
we quantify that in terms of whether it is op con miles or a 
greater sense of situational awareness? Because at the end of 
the day, what we really want to know about is that information 
and inteligence. Of those individuals that are intending to 
come into this country on the Northern border, do they have the 
capability? By what means would they try to come across the 
Northern border, both in terms of location and techniques, 
tactics, and procedures?
    That is a little bit different model than taking a look at 
the senior fence applications or camera systems across a broad 
desert area. So we are trying to get better modeling to try to 
put a little bit of fidelity in terms of how we assess that--
again, and assess the risk not necessarily in terms of linear 
border miles, because it is a different operational environment 
with a different threat as defined.
    Mr. Higgins. I think my time has expired. Thank you, Madam 
Chairwoman.
    Mrs. Miller. Thank you very much.
    The Chairwoman now recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairman.
    Mr. McCaul asked for some answers to the questions from 
Chief Fisher. If your office could make sure that--I think it 
would be beneficial to everyone, but I would like to have a 
copy of that as well. Thank you.
    Chief Fisher, I want to say thank you for taking the 
opportunity to meet with me recently as I try to understand 
your on-going mission at the Southern border.
    As you know, from South Carolina we are a long ways from 
both the Northern and the Southern border, but it is an 
interest to the folks back home when it comes to immigration 
and illegal immigration and this situation with Hezbollah being 
in bed with the cartel in Mexico and implications that may have 
for years to come. So I know you have got quite a challenge and 
continue to learn more and more at each hearing that we have.
    I want to address my questions today to General Kostelnik.
    I understand that UAVs are supposed to be a force 
multiplier that could basically remain in the air much longer 
than normal planes and require much fewer assets. The 
employment of UAVs has been touted as a way to, I guess, 
stimulate and expand the surveillance gaps affecting the remote 
sections of the border.
    However, during Secretary Napolitano's SBInet review, it 
was determined that UAVs were not suitable to patrol large 
swaths of border such as those along the Arizona-Mexico border. 
These systems require ground control station and satellite 
link, and costs have increased from $4.6 million to $10.5 
million.
    Can you just clarify what missions UAVs are best equipped 
for and provide insight as to why UAVs were not chosen as an 
alternative to SBInet?
    General Kostelnik. Well, thank you, Congressman. I will be 
happy to elaborate on that. In fact, I am not sure what exactly 
those costs are relative to, but we actually have been 
operating UAVs along the Southwest border for more than 6 years 
now, first with the Border Patrol proper and then with U.S. 
Customs and Border Protection.
    Today we have three operational aircrafts sited at Sierra 
Vista. We have one operational aircraft at NAS Corpus Christi. 
We have COA airspace to fly from the State of Louisiana to the 
State of California. So that is a lot of airspace to fly.
    Basically, although the UAS is not a panacea, it does have 
a very unique characteristic that manned aircraft just cannot 
have. In fact, we operate 26 different kinds of aircraft in 
homeland security. The Predators and the Guardians supply a 
very unique capability. They are very small, so in many 
circumstances can't be seen. That is an advantage over the 
larger airplanes.
    We don't carry crew, so there is man-related equipment on 
the aircraft, so therefore, you can put all your payload into 
sensor technologies and equipment. Because of the combination 
of the technologies, we can fly these aircraft for 20 hours.
    So you are in South Carolina. Not only are we concerned 
with the Southwest border and the Northern border, we are also 
now concerned with the littorals, which would cover the coast 
of South Carolina. In fact, back in their hurricanes 3 years 
ago, we actually put the UAVs in to work. We flew across your 
State, the complete coastal environment, taking high imagery 
synthetic aperture radar cuts of all the coastal 
infrastructure.
    Given the things that are going on in Japan, I mean, this 
is another opportunity to highlight the uniqueness of what UAVs 
can bring to bear. In that instance we now have a track record 
of all the coastal environment from the isthmus of Florida all 
the way to Dover, Delaware. Those were taken as a matter of 
record with the Predator mission during the hurricane, a 2,300-
mile flight, a 20-hour mission.
    Today, if we were to have a nuclear event like is going on 
in Japan right now, I mean, the inability to fly manned 
aircraft over those sites to understand what is going on, you 
know, gives a unique opportunity for UAVs. If we had UAVs 
deployed, the Predators over there, we could actually put the 
UAV over the top of any of those reactors.
    At the end of the day, you know, for 20 hours, it would 
give unprecedented situational awareness--slow-motion video, 
able to take high-definition radar cuts of all the physical 
infrastructure, great for comparison. That would be a wonderful 
capability to have for emergency response.
    So not only are the Predators--we are flying nightly. We 
have four operational sites. Last night we had weather at two 
sites, but we did fly and extended mission in the Caribbean out 
of our site at the Cape. That would be the aircraft that would 
support issues in South Carolina all the way up the eastern 
seaboard.
    Mr. Duncan. General----
    General Kostelnik. We also flew operational missions out of 
Sierra Vista along the Arizona border. So not only are they on-
going force multipliers for the agents and troops on the 
ground, but they are unique capabilities in unique 
circumstances.
    Mr. Duncan. General, I think we all appreciate the 
capability of UAV, and I appreciate that you all are using 
those on the Northern and the Southern border and over my State 
at times, and definitely over Japan, what a tragedy.
    But my understanding is that UAVs are not flying for 20 
hours. The FAA is limiting those. Can you touch on that for me?
    General Kostelnik. Well, there really isn't an FAA limit. I 
mean, we have had this debate. There are clearly operational 
issues with flight in the National airspace, but clearly with 
the COAs that we have in the Northern tier, the COAs we have 
all across the Southern tier and the isthmus of Florida, we 
have more airspace today then we can fly.
    Our constraints over the flying hours--a Predator Guardian 
can fly 20 hours. That is our mission capability. But to do 
that----
    Mr. Duncan. How many hours are they averaging, would you 
say?
    General Kostelnik. Well, our missions, some of the higher 
missions are 15 or 16 hours. A good many of the missions are 10 
hours. Some of the training missions, depending on the 
circumstances, are shorter. We are not flying to the full 
potential, not because of aircraft or airspace limitations, but 
because we are still building the force. We are still growing 
the crews.
    To fly a 20-hour mission actually takes three sets of 
crews, two operational, because a crew has to fly the aircraft 
when it is up and away, and a third crew to land. So you have 
to launch the crew someplace, have two crews from the 
distribute area, which we do, that fly it, and then have a crew 
to recover.
    So really, although they are unmanned, there is plenty of 
manpower----
    Mr. Duncan. How many people are on a crew?
    General Kostelnik. Well, we fly the aircraft on most 
operation missions with a two-man crew. One pilot flies the 
aircraft, and one pilot operates the sensor.
    Mr. Duncan. The Air Force requires 119 people per UAV, 
based on the data that I was given.
    General Kostelnik. Well, when you look at the----
    Mr. Duncan. One hundred nineteen and two is a big 
difference.
    General Kostelnik. No, no, when you honestly get into it, I 
mean, yes, there are more people involved if you need them or 
want them, but you get more benefit from it. So the kind of 
people that are involved in those, okay, so we have a control 
set. It just takes two to operate the aircraft.
    But taking the data takes more people. In our instance on 
occasions we will have a Border Patrol agent or an office of 
field ops in the control set, or we might have a lawyer with us 
or other local law enforcement because of the mission. That 
gives us more people involved in the mission that you can log 
to that, but also more capability.
    The data that comes out of our aircraft is now sent to 
processing, exportation, and dissemination cells. This is 
another distributed infrastructure. We have two of those, one 
at the AMOC in Riverside, one at North Dakota. In that you have 
your analysts.
    That is another five people, full-time, that are in there 
to tell the sensor operator where to look and the pilot where 
to fly. They do real-time data reduction, and they are talking 
to other intel specialists distributed throughout the system.
    As we have stood up the new joint command in Arizona, those 
people and with the warfighters are taking that information and 
working on that. So when you look at it, you might have on one 
of our given missions, because of all this distributed 
interest, there could be 50 people involved. But, you know, if 
it was unmanned aircraft feeding the same data set 
infrastructure, it would be the same number.
    Mr. Duncan. I would be curious to find out----
    Mrs. Miller. Thank you. The Chairwoman is trying to be 
lenient with the time, but we are way off our time here, and I 
want to make sure everybody has an opportunity to question.
    The Chairwoman would now recognize the gentlelady from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the Chairwoman and the Ranking 
Member.
    Let me thank everyone who is here for their service.
    I want to thank Ranking Member Cuellar for raising some, I 
think, crucial issues that I would like to address.
    First of all, I want to put on the table, Chief Fisher, 
that the continuing resolution proposed has listed $500 million 
in cuts to CBP's budget, and that would occur in 2011, meaning 
that you have obligations, and it would occur at that time--if 
you could keep that question on your mind.
    If I could have Mr. Kostelnik to keep on his mind a 
question on the impact of these cuts would have on ports. I 
come from a city with a large port. Those are vulnerable. It is 
a vulnerable area there, and I am very interested in that.
    But let me just comment, and if you would include your 
comments to me on this statement. I remember being able to go 
to Mexico and have dinner with friends, dinner with families, 
and then come back. Over the last couple of months, we have 
seen teenagers leave El Paso and are shot dead. We have seen 
our ICE agents attacked, one tragically losing his life.
    I think we are, frankly, at the worst point that I have 
ever seen, and I do not suggest the worst point I have ever 
seen under this administration. I think it has been steadily 
deteriorating, not with any respect for the hard work that our 
men and women are doing on the border. I think it has been 
challenging, whether it is on President Reagan's border, 
President Bush I's border, President Bush II's border, 
Clinton's border, Carter's border, or our present President.
    My question, then, is as you answer the question about the 
$500 million in cuts, are we ever going to get control? How 
much more can our friends in Mexico do? Obviously, local 
officials are killed, prosecutors are killed, law enforcement 
are killed. The drug violence is an epidemic and out of 
control.
    So this is not a commentary on the individual work that is 
going on, but it really is asking for a truthful assessment of 
what is needed, how this cut will impact.
    I will go to you just very quickly and thank you, Major 
General Salazar, for your work. You made a good point that you 
follow orders. Could I just ask you, however, would it be 
helpful if this Congress decided to continue the mission of the 
National Guard?
    Major General Salazar. Congresswoman, you know, I am here 
as the adjutant general and to basically echo the comments of 
my Governor, who has been very vocal about the fact that she 
believes that there should be an increased presence of National 
Guard supporting law enforcement.
    It has never been anything but supporting law enforcement 
because of the unique skill sets that we bring. We are talking 
about a lot of technology, communications, radar, sensors, 
Predators. The National Guard, the military personnel, the men 
and women in our Guard have those skill sets, and we can bring 
that skill set to support law enforcement.
    Ms. Jackson Lee. So it is not a wartime skill set. It is 
you are going to be supportive of a civilian force. Is that 
correct?
    Major General Salazar. Yes, ma'am.
    Ms. Jackson Lee. So----
    Major General Salazar. We use those skill sets to do the 
mission that law enforcement is doing on the border.
    Ms. Jackson Lee. So in the cutting, not providing funding, 
States on the border like yours, I assume if I had my major 
here from Texas, they might say the same thing.
    Major General Salazar. Yes, ma'am. I think we will echo the 
concerns of our Governors in that we need to do more to secure 
the border. If that means utilizing the National Guard skill 
sets to enhance the current operations of law in force, I would 
agree with that.
    Ms. Jackson Lee. Chief Fisher, would you answer the 
question about the $500 million cut and the conditions at the 
border with the drug violence?
    Mr. Fisher. Yes, Congresswoman, I will. Matter fact, with 
respect to the cuts, we are continuing even what we started 
last year and when I became the chief and made to take a look 
at contingency plans and efficiencies within the workforce. CBP 
continues that effort today.
    But in terms of what we are seeing in Mexico as it 
relates--
    Ms. Jackson Lee. What did you say about the cuts? I didn't 
hear you.
    Mr. Fisher. I beg your pardon. I said in terms of the cuts, 
what we are doing and continue to do this year is taking a look 
at efficiencies in the event that we had any cuts in our budget 
in terms of discretionary funds, how we do that within the 
Border Patrol in terms of----
    Ms. Jackson Lee. But you would be in essence looking to cut 
what you might need. You would be in essence leaving programs 
out.
    Mr. Fisher. Well, in some cases we may, depending upon if 
they still meet our operational priorities. What it does----
    Ms. Jackson Lee. Do you have $500 million to cut out of a 
budget that deals with horrific drug violence and the cartels 
and the murderous activities that are going on? Do you have 
that amount to cut?
    Mr. Fisher. Well, what we are doing, Congresswoman, is 
taking a look at all the cuts in different increments to be 
able to see what the offsets are going to be. For instance, if 
we identify some cuts within our operations in terms of 
deployment, there is going to be an impact to that. What we do 
is we minimize that impact across our borders and try to 
minimize any impact that----
    Ms. Jackson Lee. Well, then, you would be belt-tightening, 
and there would be some programs that will be sacrificed.
    Mr. Fisher. That is correct.
    Ms. Jackson Lee. All right.
    Mr. Kostelnik, if you forgive me for pronunciation, but the 
same question to you and tied into our ports.
    General Kostelnik. We are, as you know, a force provider 
for the Border Patrol. So we provide the maritime units along 
the ports. Obviously, we have multiple air branches in Texas.
    So 2011 was not a good year for us in terms of re-
capitalization anyway, but we do have follow-on acquisition 
that is on-going for new maritime vessels that would be 
unaffected by the continuing resolution and those expected 
cuts.
    For us it would likely manifest itself at some point into 
reduction in flight hours or on the water hours, and----
    Ms. Jackson Lee. So there would be an impact on homeland 
security.
    General Kostelnik. Depending on the level of the cuts and 
timing, yes, there certainly----
    Ms. Jackson Lee. Well, first of all, we all believe in 
belt-tightening. I think the question is whether or not 
homeland security is a place to belt-tighten or be efficient. 
So the question is ports across America would be impacted. You 
would have to pull back on some of the resources or the 
utilization of that. Is that correct?
    General Kostelnik. Well, I think at some point, depending 
on the level of cuts, there would have to be a reduction in 
float and flight hours from air and marine.
    Ms. Jackson Lee. Well----
    Mrs. Miller. Thank you very much. Again, the Chairwoman is 
trying to be lenient with the time, but I want to make sure 
everyone has an opportunity to question.
    At this time the Chairwoman would recognize the gentleman 
from Texas, Mr. Green.
    Mr. Green. Well, thank you, Madam Chairwoman. I especially 
thank you for the unanimous consent request. Like you and other 
Members of the committee, I believe that border security 
transcends politics, and we should do what we can to work 
together to make sure that we secure all of our borders.
    I want to thank the persons who are here today. You are 
doing a great service for our country, and it is most 
appreciated. Because you do such a great service for the 
country, as one American I want you to know that I am concerned 
about the safety of our men and women, who work along the 
border.
    I am concerned about the border. Don't get me wrong. That 
is of paramount importance--all borders, but also the safety of 
the men and women who work along the border and as well as 
those who work on the other side of the border.
    You know of the incident that has occurred, and my concern 
is whether or not our personnel on the other side of the 
border, whether they are secure enough to work in that 
environment and not be able to protect themselves with proper 
armaments. Do they need to have weapons? I have an opinion, but 
I would like to hear from the experts as to what we should do 
to make sure that they can protect themselves.
    Chief Fisher, if you would, do our agents on the other side 
of the border need the ability to protect themselves? I 
understand that they are guests, and they are in the host 
country, but what about their safety?
    Mr. Fisher. Yes, Congressman. First, thank you for your 
concern, and I share your concern with any U.S. person that is 
in Mexico.
    But in particular the Border Patrol doesn't have that many 
Border Patrol agents that are assigned in Mexico. Matter of 
fact, the overwhelming majority are assigned at the embassy, so 
the answer to your question would really depend on what their 
function is and what they are actually doing.
    So for those individuals working at the embassy and force 
protection provided, we are doing everything we can in terms of 
getting risk assessments and threat assessments, working with 
NORTHCOM, for instance, and working with our CBP attache in 
Mexico City, to constantly evaluate that and make 
recommendations to us. All those will be taken into 
consideration in the near term.
    Mr. Green. Thank you.
    Would anyone else like to respond?
    Let me move to another topic. We obviously will do our 
proactive prevention, and that is the best way, I think, to 
help ourselves with this border protection, as opposed to 
reactive apprehension.
    I do want to talk to Mr. Stana--I seem to have lost--Mr. 
Stana, you about a concern. Our staff--and I salute them, the 
staff personnel, for what they are able to do. They literally 
sift through the sands of information and find pearls of 
wisdom. They have accorded me one pearl of wisdom that I would 
like to share with you.
    It reads that ``GAO has also noted that CBP currently does 
not have the ability to detect illegal activity across most of 
the Northern border.'' That is a fairly significant statement. 
Will you please elaborate on what that actually means?
    Mr. Stana. Yes, Mr. Green. In fact, that observation was 
made in connection with the report on the Northern border 
security that we just finished last fall. I know the Chairwoman 
is well aware of that report.
    The number of miles on the Northern border that is under 
operational control is about 2 percent. That is mainly because 
unlike the Southwest border, where you have maybe 19,000, 
20,000 Border Patrol agents covering 1,900 miles, you have got 
maybe 2,000 agents covering 4,000 miles--wide open spaces, no 
tactical infrastructure, very little of the air assets, you 
know, in comparison to other locations.
    The radar capabilities for detecting low flying aircraft 
aren't what the Border Patrol would like them to be. So there 
are many risks, many vulnerabilities. This has been documented 
not only in our reports, but in reports that have been done by 
CBP and others.
    You know, the threat is different. As has been pointed out 
by other members of the panel, you can't expect that Border 
Patrol or any other single organization to do it alone, or you 
would be beefing up the size of the Border Patrol or any other 
organization tremendously. But it is incumbent on the 
organizations up there to coordinate and cooperate with the 
resources that they have.
    Mr. Green. I think it appropriate that someone have an 
opportunity to respond. Who would like to respond?
    General Kostelnik. I will respond to some of that, because 
clearly the terrain and the geography is very different. While 
there is a large amount of expansive space and fewer agents, it 
really is a different environment.
    Along a lot of it, particularly out in the western part, 
there is no infrastructure on either side of the border to 
really to support this kind of activity. So I think there is 
some, you know, some merit in the case that there is a lot that 
we don't know that is going on.
    Certainly, we have a different threat base. There is a 
different flow, whether it is weapons or cash or illegal 
substance of some kind. So, really, I think, again built on 
growing our technology and growing our capability, as we have 
slowly been doing on the air piece and now we are starting to 
do on both the water and the land piece, we are starting to 
deal with some of these unknowns.
    We worked closely with the Guard over the years to put in 
ground-based radar to improve our look-up. We are slowly adding 
more capability with look-down with the UAVs. We are 
aggressively partnering, as we always have, with our Northern 
neighbors on intel functions to target our activities where 
there is need. But there are still a lot of unknowns, and those 
are the kinds of things that we are going to have to track.
    But behind the scenes in the areas that we think are 
highest risk, we are employing our best effort in terms of 
people, our best effort in terms of technology and supporting 
infrastructure with aircraft or maritime. Clearly, in the area 
of the Great Lakes, where there is more population, there is 
more activity and therefore more risk.
    I think you are seeing, you know, a concerted focus by the 
vestiges of the old SBI, some of the new things that we are 
doing like the OIC, what we have put specifically to boats, 
what we have put in the new AW-139 helicopters. We are 
increasingly going to grow those capabilities.
    The world is an uncertain place. We have a broad area to 
cover. Again, I mentioned that we still have the littoral. With 
all of the pirating activity that is going on on the world 
stage, there is not a lot of protected infrastructure on the 
sides of the country--on both sides.
    Our new commissioner has come and looked at that, and we 
are starting to focus on thinking about how do you protect the 
littoral part of the country as well. We have seen now fully 
submersible submarines that can sortie out of Colombia with 
more than 3,000-mile range. They can land north of where most 
of our border protective infrastructure is.
    So the world has become more complex, and it is a matter of 
prioritization, where you put your assets and what are your 
National priorities. The help, in a way, is the growth in IT 
infrastructure and----
    Mr. Green. My time has expired. Thank you.
    Thank you, Madam Chairwoman.
    Mrs. Miller. Thank the gentleman.
    We are going to go to a second round of questions here. I 
know that those Members that are remaining have lots of other 
questions as well, so we wanted to do so. I think this is just 
an excellent panel that we have here today really getting to a 
lot of our questions. We appreciate all of that.
    I am going to go back to--well, first of all, let me talk 
about the budget. For instance, it has been mentioned about the 
$500 million on the CR. That is primarily the SBInet that 
Secretary Napolitano has said is not necessary anymore. So that 
is principally what that figure is.
    But, you know, budgets really are a reflection of the 
Congress reflecting the will of the American people, I think. I 
think it is clear that the will of the American people is to 
secure our borders. They certainly have that will. They have 
the political will. I think it is for the Congress to 
demonstrate the political will that the American people have, 
and that is really what this hearing is trying to get at today.
    So one of my earlier questions was about the potential to 
co-mingle some of the budgetary issues between the Department 
of Homeland Security as well as the Department of Defense.
    I am going to go back to my question again, and perhaps to 
Chief Fisher and to Major General Salazar as well, about the 
utilization of not only the National Guard, but whether or not, 
because of what is happening on the Southern border, which 
seems to be a complexion that is now changing to the dynamic 
that is very similar to a war zone situation with the overspill 
of the drug cartels into our country, how we not only secure 
our border, but to keep that kind of element out of America.
    I wonder if it is something that we should be looking at as 
actually using, as I say, perhaps a Stryker brigade. You know, 
a Stryker brigade, my understanding, for instance, that the 
Guardsmen, I think, maybe only Pennsylvania is currently 
training and has a Stryker brigade, but it would be something 
perhaps that this Congress should look at.
    If you have a Marine Stryker brigade on the other side of 
that border, I think those drug cartels are going to think 
twice about coming across that. That is not, believe me, any 
slap on what is happening with the Customs and Border Patrol at 
all. You do a wonderful, fabulous job. But I think we need to 
beef it up.
    So I am thinking in those terms. I mean, we are talking 
about UAVs, which is an off-the-shelf technology, has had great 
impact in theater, and we are looking at other kinds of 
technology.
    One of the things that this committee is going to be 
looking at as well is other types of, in addition to the UAVs, 
the land systems, robotic land systems, again, that we have had 
excellent success with in theater. The terrain in Afghanistan 
certainly is rougher in most cases than what we have on the 
Southern or Northern border, so if it can be utilized there, 
again, the taxpayers have already paid for this fantastic 
technology, and I think it has application for homeland 
security as well.
    So I would just throw that out in regards to a Stryker 
brigade or other beefing up of military along the Southern 
border to either Chief Fisher or Major General Salazar, if 
either one of you would like to comment on your thoughts on 
that.
    Mr. Fisher. Chairwoman, thank you very much. I will go 
first, and the general, if he chooses to respond as well.
    We have been working with Department of Defense for the 
last 20 years or so both in terms of the counter drug missions 
under Title 10, Title 32, and we continue to work with the 
Department of Defense, and through our primary point of entry 
is NORTHCOM.
    We identify to NORTHCOM by way of Joint Task Force North in 
El Paso, Texas, our operational requirements on a yearly basis. 
Matter of fact, we are just starting to do that on a quarterly 
basis now so that we can have a lot more mobile and flexible 
deployments on that. So we welcome any continued opportunity to 
work with the Department of Defense under a border security 
mission.
    Mrs. Miller. General, again, I am not sure whether or not 
Guardsmen and women have had the opportunity to train on a 
Stryker brigade, but if you are familiar with the Stryker, I 
mean, I think it has application for a homeland security type 
of mission because of the ability for it to run on just regular 
roads--and everything else. I think it just has that type of 
application, but your comments on that.
    Major General Salazar. Yes, ma'am. Excuse me.
    I guess, just to be honest, it would have to come down to: 
Do we feel that using a Stryker brigade would be a demonstrated 
use of force? Is that going to have an impact? Because when you 
talk about specifically capabilities of what we can provide to 
law enforcement, we could provide the same type of observation 
and reconnaissance with a much smaller package like the entry 
identification teams that we are doing now.
    A Stryker brigade, in my opinion, would probably be a 
little bit too much, unless the use of force is the objective, 
which I wouldn't be able to analyze or provide any kind of 
input if that is really an effective use of a Stryker brigade.
    Mrs. Miller. I appreciate that. I think you can see from 
the questions of our committee here that there is great 
consternation about the runoff--and the runout in June of the 
National Guard along the border. So I am sure we are going to 
be talking amongst ourselves about that.
    Major General Salazar. Yes, ma'am. If we are talking fiscal 
responsibility here, and so we can, in my personal opinion and 
from experience in Arizona, you would get a lot more bang for 
the buck using the funds to enhance entry identification team 
type support as opposed to the huge cost of bringing in a 
Stryker brigade.
    Mrs. Miller. I appreciate that.
    General Kostelnik, in regards to the UAVs, and I think you 
have answered most of my questions, but I was wondering a bit 
about the UAVs around the Northern border in regards to the 
type of drones that you are using there, et cetera.
    Is there any problem with weatherization on those drones? 
It might be a simple question, but I wonder about that 
sometimes. Do you have de-icing? Do you run into any particular 
weather problems with the type of equipment that you are using 
there?
    General Kostelnik. Well, you may recall that last year--I 
mean, a couple of years ago, we actually put the Predator for 
the first time into the climatic lab down at Eglin Air Force 
Base, first time any of the family series had ever been there. 
To their credit, the Army put in a Warrior at the same time, so 
we actually understand a fair amount about the aircraft.
    It does not have a de-icing system. Most aircraft don't. 
Most manned aircraft have anti-icing systems, but there are 
many scenarios where manned aircraft have trouble in icing, so 
you fly out of it. The Predator is very much the same.
    We have been up now operational for, I think, 3 years in 
North Dakota. There are days, clearly, in certain forecasts 
when we can't fly. It is not a panacea. It is limited, but 
there are the same limitations on manned aircraft. But most of 
the time icing is not an issue. I mean, we can fly clearly in 
winter weather. Those aircraft have flown in 28-degree weather 
routinely, but they have the same limitations as manned 
aircraft do.
    Mrs. Miller. General, you also mentioned about the CAOs. I 
would just mention to you in addition to Homeland Security, I 
also sit on the Transportation and Infrastructure Committee, 
and our committee has just passed out the reauthorization for 
the FAA, which the House will be taking up, I think, next 
week--excuse me, in 2 weeks.
    But at any rate, one that we put in there is a plan to 
expedite, actually, the CAOs for various agencies and try to 
develop a plan quicker because of some of the problems that we 
are well aware of that you are facing. Again, I understand the 
agency, FAA, and their mission may be different than ours, but 
we are all Americans first and foremost, and we need to be 
integrating some of these areas.
    I will just mention the Detroit sector in particular. At 
Selfridge Air National Guard Base, we thought in 2010 that we 
were going to get a ground mission for UAVs, and I don't know 
where that is now. In the Detroit metropolitan area, because of 
the size of that hub, they are talking about moving it--the 
ground mission--somewhere else, because the FAA won't give you 
the CAO on that, so if you have any comment on that.
    General Kostelnik. Well, I mean, flight of the National 
airspace and the COAs are really all about, you know, managing 
risk. The system you fly has a lot to do with it, and that is 
why we chose the Predator B. It is the safest of all of the 
UAVs out there. You know, we lost our first aircraft back in 
2006, but we have had really no major accidents since then. All 
of our aircraft are, you know, kind of operational.
    But when you get into the metro areas, where there is a lot 
of commercial traffic, you know, that is where the FAA is most 
concerned. They like to have more studies. They like to have 
more information. They are very careful of who they authorize 
to fly in the National airspace, because there is such a wide 
variety of risk associated with the aircraft, a very small 
handheld UAV like model airplanes all the way up to the Global 
Hawk and everything, you know, kind of in-between.
    But I think we have given as a matter of National security 
the FAA, you know, the best model, the best platform and the 
best mission requirements pool, you know to further the policy 
of what aircraft should be allowed to fly. I think, quite 
frankly, we have made a lot of progress.
    With the brackets that we have had in upstate New York and 
the experience we have had in North Dakota and the progress we 
have made out west, I believe the Great Lakes, you know, is 
going to come.
    But we are still growing pilots. We don't have enough 
pilots for the aircraft we currently have. There is clearly a 
lot of significant focus going on in the Southwest border, and 
we have a lot of National contingency response. So I think is 
going to come, but it is still going to take some time.
    As far as the ground controls, you know, it is just a 
matter of getting the GCSs. While it is easier to get the 
aircraft on contract, it is much more problematic to get the 
ground control stations as fast as we get the aircraft.
    So although we are funded for added ground control stations 
as well as Predators this next year, we will get the two 
Predators that this committee helped us get delivered this 
calendar year, one in October and one in December, but we won't 
get the GCS for another year after that. So that kind of delays 
where and when we can fly things on the ground.
    Mrs. Miller. Thank you.
    My last question--I am giving myself a little bit of extra 
time here--and I do have to mention about the Operational 
Integration Center, which is at the Great Lakes branch of the 
Northern border wing there. We are very excited to have that 
grand opening next week.
    I have had an opportunity to tour that facility several 
times as it has been under construction, and just as recently 
as several weeks ago. I think it is going to be a critical 
component, an excellent component of a complete total force 
concept along the Northern and the Southern border. Certainly 
it is a pilot there, but it could be utilized at either border.
    One of the things that we learned from 9/11 and the 9/11 
Commission recommendation, which in my office I keep telling my 
staff this is not shelfware. We need to look at this often and 
remind ourselves that some of their key recommendations was, 
again, how we had to move from the need to know to the need to 
share.
    The Operational Integration Center, just for the committee 
to understand, is again, essentially all of the various 
stakeholders in that sector, including our counterparts, our 
Canadian counterparts, State police, local first responders, 
Air and Marine, the Customs and Border Patrol, the Coast 
Guard--I am sure I am missing a few, but everybody who has a 
stake in the entire thing--and then analyzing all of this data 
properly.
    To the very best of our ability, again, so that you put 
something--there is no second for information, good 
information, in all of your businesses, good information and 
intel--and getting that information out into the hands, 
ultimately, of the men and women who are on the front lines so 
that they can utilize that kind of information to be so much 
more effective.
    So I am very, very enthusiastic about the OIC. I don't know 
if you have any comment about--either of you--how you might see 
that unfolding.
    Mr. Fisher. Yes, we do share your enthusiasm, 
Congresswoman, and look forward to the implementation and 
getting that information used for operational effectiveness. 
Thank you.
    Mrs. Miller. Mr. Borkowski.
    Mr. Borkowski. Just to add to that, we are very excited 
about it for several reasons. One of them is that that 
Operational Integration Center was designed with the unique 
nature of the Northern border in mind. It is also true that we 
expect to gain some lessons for the rest of the border, but as 
Chief Fisher and General Kostelnik have indicated, a lot of the 
effectiveness on the Northern border is based on that sharing.
    The second thing I would point out is that the way we 
designed and developed the Operational Integration Center 
represented a change from how we designed, say, SBInet and some 
of our past history, as did the deployment of the RVSS. It was 
a much more structured acquisition process. It was a much more 
detailed relationship with our operational users. The result 
was to produce something with a lot less problems then we had 
with the SBInet.
    I don't want to--so there is something learned there about 
how to buy things, that I don't want to pretend that our 
processes are all mature, because they are not. Many of our 
processes are still very rudimentary--even our analysis of 
alternatives, sound but rudimentary compared to DOD.
    But I think what you are seeing with the OIC and with some 
of the other things that we have started to build processes for 
is the effectiveness of those processes. I don't want to say we 
are all the way there, but we are starting to show the results 
of some of that discipline.
    Mrs. Miller. Thank you very much.
    At this time I recognize the Ranking Member, Mr. Cuellar.
    Mr. Cuellar. Thank you, Madam Chairwoman.
    Chief Fisher, the new CR, H. Res. 48 that I believe we are 
going to vote on this afternoon, will cut $107 million for 
construction of Border Patrol facilities. These funds were for 
replacements of existing Border Patrol facilities in four 
States, including Texas, Washington, Maine, and New York.
    I believe the ones in Texas--one of them was in Freer. I 
don't represent that area, but I just passed it just about 2 
days ago on Sunday, so I am very familiar with that station. If 
there was any need shown to upgrade these facilities, why 
weren't these projects moved up forward last year? If it was so 
important, why are we letting go of this money?
    Mr. Fisher. Congressman, I will tell you as we look at all 
facilities within the Border Patrol and our deployments, we 
take a look at interior stations, for instance, and we look at 
deployments, if we are going to be increasing staffing or 
attriting down staffing in different locations.
    All of that was taken into consideration when we make the 
recommendations on which Border Patrol stations or facilities--
some cases, if we are going to be doing co-location, it would 
just make sense to do that as opposed to continuing building, 
either adding to pre-existing facilities or adding new 
facilities. That is all the process that we went into to make 
our recommendations to the department.
    Mr. Cuellar. Again, I speak of Freer, because I am familiar 
with that, and I don't know if you would like to work there, 
but I am sure the men and women that work there would like to 
have a better place. If you are in a small rural area, I think 
the folks in a small rural area would appreciate a better 
place.
    So when did this change from a priority to a non-priority 
so you can let go of this unobligated $107 million that we are 
going to be voting on this afternoon to cut?
    Mr. Fisher. Well, the specific time on the priority, 
Congressman, I would have to get back to you on that. But I do 
share your interest. Certainly, the men and women of the United 
States Border Patrol require adequate facilities, because we 
are asking them, you know, quite honestly, to protect this 
country. We are focused on that as well.
    Mr. Cuellar. Can you put that in writing and again share it 
to all the committee?
    Mr. Fisher. Yes, sir.
    Mr. Cuellar. Second thing is let us talk about 
administrative costs at Border Patrol headquarters. How many 
agents do you have at headquarters?
    Mr. Fisher. Approximately 230.
    Mr. Cuellar. Okay. Can you afford, without affecting your 
mission they are at headquarters, to move some of those to the 
border, where there has been an emergency declared?
    Mr. Fisher. We have in some instances, Congressman, yes.
    Mr. Cuellar. Could you put it down in writing? Well, let me 
ask you this: How many do you think you can afford leaving from 
headquarters and allow them to go down to the border?
    It is like in the State, when I was in the State 
government, there was always a concern about the 
superintendent's office having this overhead, administrative 
costs, putting more for the teachers in the classroom. This is 
the same type of logic that I am using. How many folks can you 
let go from headquarters and send them back to the border, 
where they can provide security at the border?
    Mr. Fisher. We will provide you that report, sir.
    Mr. Cuellar. Okay. Do you have any idea right now?
    Mr. Fisher. I do not.
    Mr. Cuellar. Okay. Could you let go of some?
    Mr. Fisher. I beg your pardon?
    Mr. Cuellar. Could you move some to the border?
    Mr. Fisher. I don't know at this point.
    Mr. Cuellar. Okay. As the chief of the Border Patrol, I 
have asked you several questions today, and you have not been 
able to answer at least three of them.
    Mr. Fisher. Well, Congressman, I will tell you specifically 
when--you know, with 230 Border Patrol agents in our 
headquarters, that was an increase from 34 as we were 
transitioning to the Department of Homeland Security.
    One I receive requests from the field in terms of increased 
staffing levels, there is a whole host of things that are taken 
into consideration, and I have got a very competent staff that 
informs me on their judgment on what the impacts are going to 
be whenever you moved any Border Patrol agent. I expect that 
will be the process of this case as well.
    Mr. Cuellar. Okay. Will you specifically let us know if you 
can move any of your Border Patrol agents who are at 
headquarters, without affecting the mission there, down to the 
border, where I believe they were--where they were supposed to 
have been going to?
    Let me ask you this: Under the supplemental bill that you 
don't have the answer as to how many you have hired so far, is 
there any intention to have any of those people go up to 
headquarters?
    Mr. Fisher. Not at this point, sir.
    Mr. Cuellar. Not at this point.
    Mr. Fisher. Not to increase our authorized levels of 
headquarters.
    Mr. Cuellar. Okay. Again, if you can put that in writing 
and share with the subcommittee.
    This is a general question. According to a recent GAO 
report, CBP had, I believe it was $639.4 million, Mr. Stana, on 
our obligated balance, and it is a customs user fee account as 
a result of excess collections from the temporary fee increase 
and elimination of North America Free Trade Agreement country 
exemption from January 1, 1944 to September 30, 1997.
    I think GAO first identified these unused funds in 2008. 
Bottom line is we got $639 million there in a bank account. Is 
that correct, Mr. Stana?
    Mr. Stana. Yes, that is my understanding.
    Mr. Cuellar. Okay.
    Gentleman, if you had $639 million sitting in an account, 
why have we not moved it? I can understand probably the answers 
will be, well, are we authorized to use this money or not? If 
not, has any brought that to our attention? I am sure that 
Chairman Miller, myself could find a lot of ways to use this 
money to help borders both at the Northern or at the Southern 
border.
    Mr. Kostelnik, we would be happy to get you more UAVs. I am 
a big supporter, and I like the job that you are doing.
    Same thing, Mr. Borkowski.
    I am just saying is there a way that we can move this 
money? Because if you talk to border sheriffs, they will say, 
``Hey, we will take a share of this.'' If we talked to 
Homeland, instead of giving money back, we would love to take 
that. What can we do to help you, in other words, to get this 
$639 million unobligated balance, if it is still there?
    Mr. Borkowski. Congressman Cuellar, we can give you much 
more detail, but we do have some legislative proposals about 
how to use those fees. In the past there have been times where 
we have been able to move some of that, but it is important to 
understand that in large measure those funds from our officers, 
we have to project the cost of those officers, we have to 
project the cash flow. Right now we are looking at a deficit, 
not a surplus.
    So we will give you the detail, but in the past when we 
have had surpluses that we thought would be continuing 
surpluses, we have sometimes been able to move those funds to 
other purposes. Right now we are very concerned about paying 
the salaries of our existing officers. We will get you some 
more detail on that.
    Mr. Cuellar. Yes, I have got to close, but can you just get 
us and work with Mr. Stana as to--they are unobligated $639 
million. Give us some suggestions how we can help you, at least 
the one-time purchases like equipment?
    Thank you very much, Madam Chairwoman.
    Mrs. Miller. Thank you very much.
    Any last questions?
    We will go to the gentleman from South Carolina, Mr. 
Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman.
    Just a follow up, General. Out of the 10,000 new Border 
Patrol agents and 20,770 plus or minus agents, how many of 
those are involved in the UAV program? This is a follow-up to 
our question earlier, General.
    General Kostelnik. Well, it is a complex answer. I mean, we 
have only hired, you know, dedicated 24 new UAV pilots. During 
this same time period of that growth, our total pilot force has 
increased from a force of about 535 in 2005 to a force of about 
850 today.
    What we do is we are dual qualifying our pilots who fly 
manned aircraft to also fly the unmanned. It reduces risk on 
the unmanned side. It is more of a popular mission, because 
flying UAVs isn't a popular mission for most of the pilots. 
They would rather fly really aircraft.
    So actually we have probably about 60 pilots either 
dedicated or dual qualified that are flying in some part of our 
mission, and it is still not enough. We are growing more. We 
are training pilots not only for the up and away flying with 
the launch and recovery as we speak.
    It is the biggest shortfall in all of the UAV community. 
Not only us, but Department of Defense has the same issue. 
There are not enough pilots actually to fly the airborne 
equipment that we have.
    Mr. Duncan. Well, that segues into including staff and 
maintenance cost. What is the cost per flight hour for the UAV 
versus the Custom Border Protection's manned aviation assets?
    General Kostelnik. Well, you know, that is a good question. 
Again, it is complex in how you put it, but I asked our head 
budget guys, because I thought I would probably get that 
question today, because it is kind of the assent that they are 
expensive. The reality is while not, you know, cheap, they are 
not really expensive compared to the manned thing.
    So in the newest aircraft we have the Guardian, which is a 
Predator with a sea view radar. It does a comparable mission to 
our P-3s. So a P-3, for example, with a nine-man crew, that is 
the aircraft that if you bought it new today, it would probably 
cost you about $80 million. It costs us around $7,000 per 
flight hour to fly that aircraft.
    The Predator, you know, costs us about $20 million total 
for the total system--actually about $18 million, aircraft, 
satellite time, the ground control station, everything you 
need, and it costs us a little over $3,000 to about $3,500 an 
hour to operate the Predator.
    Now, if you looked at an aircraft in between, like the MEA, 
which is a King Air light twin engine aircraft with similar 
capability, that aircraft costs about $20 million. In fact, we 
have five of them up in Hagerstown, Maryland. We get the first 
multi-role enforcement aircraft this summer. It costs us about 
$20 million for the aircraft. It is a similar mission as the 
Predator, only it is manned, but it can only fly about 6 hours. 
It costs us just about the same, about $4,000 an hour to 
operate.
    So the operational costs are really about the same. Of 
course, getting to your point earlier about the flight time, it 
is a very important piece of aviation, because the bulk of the 
cost, if you look at the whole cost, not just the flying our 
cost, but the whole operational cost for a system, it is 
heavily driven by the launch and recovery pieces. That is where 
you burn up tires, you know, you expend your extra fuel in the 
high speed.
    So much of the cost to operate an aircraft, that actually 
is in the launch and recover phase. So oddly enough, the longer 
you can fly an aircraft, the more cost-effective it is going to 
be. So if we had the pilots, we would certainly be flying our 
Predators for 20 hours they are capable of, and we would get a 
much better full loaded operational cost of the system.
    Mr. Duncan. We have got some airframes that are, you know, 
20 years old. I mean, you get a lot of--you spread that cost 
out over a lot of years on a regular aircraft. Is that similar 
in a UAV? I mean, technology is changing. Are you going to be 
able to get the 20 years out of an airframe UAV?
    General Kostelnik. Well, you know, it is actually you have 
to go back to the history, because originally back in 1994 
these were kind of conceived as high-risk throwaway items in a 
combat zone. The original Predators cost about $2 million 
apiece and were considered, you know, you would lose a lot of 
them in combat.
    Today the Guardian and the Predators are much more 
sophisticated, but they are still plastic airplanes. They are 
still built with unique and novel technologies that are fairly 
easy to repair. Over the last 5 years, launch and recover, and 
particularly landing, has been a problem not only for us, but 
all of the services. We have had several landing incidents, 
where the aircraft, or piece of it, was damaged.
    For very small amounts of money, we have been back, because 
it is basically a plastic aircraft and a fairly simple engine 
to go back and make repair on all those aircraft. There is not 
a lot of data on the long-term service life of Predators, 
because they were never intended for that.
    But now as the services, the big services and the DOD, have 
procured more of these and are going to procure even more over 
a long period of time, there will come a time when service life 
becomes an issue. But because of the composites these aircraft 
are designed to, replacing wings, replacing tails, they are 
going to be much easier and much cheaper to accomplish than the 
classic, you know, metal type aircraft.
    So I think the story in the long run is going to be a good 
one just because of the construction technique. The reality is 
the strength and the long-term viability of these things are 
going to be driven by the sensors that you carry. So we are not 
only flying the sensors that the DOD is, but we are looking at 
new technologies for radiation sensors, for supporting groups 
on the ground with systems like beta, which will help detect 
moving things. I think these aircraft are going to be around 
for a long time.
    Of course, in our manned aircraft fleet, we have aircraft 
still in service today that are approaching 40 years old. So if 
you keep them safe and modernize them, they will still be the 
best value for the service.
    Mr. Duncan. I appreciate that. We are spending a lot of 
money on technology and other things, and I think a lot of 
times simpler is better. I keep going back to what the folks in 
South Carolina think we should do, and that is concrete still 
and barbed wire, and maybe think of a simple approach.
    Thank you, Madam Chairwoman for the leniency.
    Mrs. Miller. Thank you very much.
    Again, I want to thank all of the witnesses. I think this 
has been an excellent hearing. We certainly have had, I think, 
very good questions on both sides and excellent answers as 
well. I just appreciate all of your service to the Nation. 
Certainly as you represent the men and women in Customs and 
Border Protection and Air and Marine and National Guard, GAO as 
well, we thank you so very, very much for all of you appearing 
here today.
    The hearing record will be held open for 10 days. If any 
committee Members have any additional questions that they would 
like to ask, we will try to get them responded to as well.
    Without objection, this subcommittee stands adjourned.
    [Whereupon, at 12:12 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
